  United States Department of State
and the Broadcasting Board of Governors

Office of Inspector General




 Semiannual Report
  to the Congress




October 1, 2000, to March 31, 2001
          Summary of OIG Accomplishments
Financial Results:

Questioned costs
   Issued during the reporting period                 $ 1,152,000
   Management decision during the reporting period    $ 860,000
Recommendations for funds to be put to better use
   Issued during the reporting period                 $   522,000
   Management decision during the reporting period    $   428,000
Investigative recoveries                              $    50,976

Investigative Results:

Cases opened                                                  47
Cases closed                                                  23
Judicial actions                                              62
Administrative actions                                        10
Hotline and complaint activity                               176

Reports Issued:                                               46




             Requests for additional copies of this
           publication should be addressed to:

                    Office of Inspector General
                    U.S. Department of State
                    OIG/PPM/RR, Room 810
                    1700 North Moore Street
                    Arlington, VA 22209




     Department of State Publication 10785
                 Office of Inspector General
                     Released May 2001
Table of Contents

                     EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
                     CONGRESSIONAL PLANNING AND OUTREACH . . . . . . . . . . . . . . . . . . . . . . . 9

                     DEPARTMENT OF STATE
                         FINANCIAL MANAGEMENT AND ADMINISTRATION . . . . . . . . . . . . .                                        17
                         FOREIGN POLICY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           25
                         SECURITY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   41
                         HUMAN RESOURCES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .              43
                         INFORMATION TECHNOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                     45
                         INVESTIGATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .         47
                         APPENDIX 1: Investigative Activities . . . . . . . . . . . . . . . . . . . . . . . . .                   55
                         APPENDIX 2: Reports Issued . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                 56
                         APPENDIX 3: Savings and More Effective Use of Resources
                            TABLE 1: Questioned Costs . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                   58
                            TABLE 2: Funds Put to Better Use . . . . . . . . . . . . . . . . . . . . . . .                        59
                         APPENDIX 4: Resolution of Reports & Recommendations
                            Previously Reported Significant Audit Recommendations. . . . .                                        60
                            Audit Reports Pending Management Decision . . . . . . . . . . . . .                                   61

                     BROADCASTING BOARD OF GOVERNORS
                         OIG ACTIVITIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .         69
                         APPENDIX 1: Investigative Activities . . . . . . . . . . . . . . . . . . . . . . . . .                   71
                         APPENDIX 2: Reports Issued . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                 71
                         APPENDIX 3: Savings and More Effective Use of Resources
                            TABLE 1: Questioned Costs . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                   72
                            TABLE 2: Funds Put to Better Use . . . . . . . . . . . . . . . . . . . . . . .                        72
                         APPENDIX 4: Resolution of Reports & Recommendations
                            Audit Reports Pending Management Decision . . . . . . . . . . . . .                                   73

                     LIST OF ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 74
                     INDEX OF REPORTING REQUIREMENTS . . . . . . . . . . . . . . . Inside Back Cover




OIG Semiannual Report to the Congress, October 1, 2000, to March 31, 2001                                                         77
Executive Summary

                         During this semiannual reporting period, the Office of Inspector Gen-
                         eral (OIG) has continued to assist the Department of State (the Depart-
                         ment) in addressing major management challenges, conducting oversight
                         in the six key strategic areas: foreign policy, financial management and
                         administration, human resources, information technology, security, and
                         accountability and integrity.
                              These challenges can be distilled to three fundamental concerns:
                         people, security, and technology. Their successful resolution requires stra-
                         tegic planning, adequate resources, and sustained commitment on the
                         part of senior managers. The Department has made real progress in
                         meeting some of these challenges, and the Secretarys recent testimony
                         on the FY 2002 budget identified these issues as continuing priorities for
                         the Department. In the past, the Department has been criticized for re-
                         luctance to change. Today, the Department is aggressively reexamining
                         itself with a view to finding new ways to accomplish its mission more
                         efficiently and effectively.
                             OIG has also helped the Broadcasting Board of Governors (BBG)
                         to address its major management challengethe transition to becoming
                         an independent Federal entity. OIG found that the agency has made
                         considerable progress in establishing its independence while continuing
                         to transmit international broadcasts throughout the world. BBG made a
                         number of organizational changes to incorporate some functions previ-
                         ously performed by the U.S. Information Agency (USIA), e.g., legal
                         counsel, contracting, security, and civil rights. Several operational issues
                         remained unresolved with the Department in connection with indepen-
                         dence. The key issue is the lack of a Memorandum of Understanding on
                         operating arrangements between BBG and the Department. The two
                         agencies are now close to resolving that issue.



Security                 The Departments most pressing challenge continues to be providing
                         for the protection of people, information, and facilities overseas. The
                         Department responded quickly to use Emergency Security Supplemental
                         Appropriations to improve security for our people and facilities after the
                         1998 bombings of two U.S. embassies in Africa. These security measures
                         include improved shatter resistant window film for all missions, strength-
                         ened perimeter defenses, and the institution of new initiatives like the




OIG Semiannual Report to the Congress, October 1, 2000, to March 31, 2001                          1
          surveillance detection, overseas wireless, and armored vehicle programs.
          These programs have given U.S. embassies additional layers of real
          protection. Based on several reviews, OIG recommended that the
          Department reexamine these programs and tailor these initiatives more
          specifically to local security environments.
               U.S. personnel and diplomatic facilities overseas are generally better
          protected now than they were before the bombings. It must be under-
          scored, however, that most of our embassies still lack adequate setback.
          Under these conditions, adequate protection will require billions of dol-
          lars and sustained commitment for a number of years until the Depart-
          ment can replace the many chanceries, consulates, and other buildings in
          which our personnel currently work at risk.
               OIG has worked closely with the Department in overseeing con-
          struction and maintenance initiatives undertaken with the FY 1999 $1.5
          billion Emergency Supplemental Appropriation to improve security in
          the interim. This reporting period OIG made recommendations regard-
          ing the new chancery in Kampala, Uganda, and reviewed construction in
          Luanda, Angola, and Doha, Qatar, as well as in Pristina, Kosovo, to de-
          termine if these designs and construction have the security features nec-
          essary to meet the local threat. In Pristina, OIG commended the
          Departments efforts to protect the facility and staff. These reports are
          summarized in the classified annex to this report.
               OIGs review of the Bureau of Diplomatic Securitys Surveillance
          Detection Program noted that the worldwide establishment of an en-
          tirely new security initiative against terrorism at U.S. missions was a sig-
          nificant achievement. However, the program has missed an important
          opportunity by not using surveillance detection staff as an additional
          layer of protection against mass casualty attacks. OIG also found that the
          surveillance detection programs lacked adequate procedures to address
          emergencies. In addition, software to track surveillance incidents failed to
          discern patterns of hostile surveillance. OIG identified best practices and
          alternative methods to more economically detect hostile surveillance.

          Emergency Preparedness
          OIG inspections have identified the need for more attention to emer-
          gency preparedness and stressed the importance of conducting crisis
          management exercises and emergency drills. Many posts are still not con-
          ducting missionwide exercises of all required drills in all facilities. This is
          such a recurring issue that OIG wrote a special memo to the Department
          on May 30, 2000, alerting it to the worldwide nature of the problem. In
          response, the Department issued instructions to all chiefs of mission to
          conduct these drills. In addition, a recent followup and compliance re-



2   OIG Semiannual Report to the Congress, October 1, 2000, to March 31, 2001
                         view noted that the Department has still not published detailed guidance
                         for temporary suspension of operations for embassies under terrorist
                         threat. The Department has agreed to issue such guidelines based on a
                         February 1999 OIG recommendation.
                             In 1998, OIG recommended that the Department implement world-
                         wide duck and cover drills and install imminent danger notification
                         systems alarms that could be activated by local guards protecting the
                         embassy perimeter. Admiral Crowes Accountability Report reiterated
                         that recommendation. OIG has conducted more than 60 security over-
                         sight inspections since then. Last August, OIG further recommended
                         that embassy warning alarms be simplified to only two warning tones:
                         one for immediate duck and cover, the other for immediate evacuation
                         of the building. The Department is currently developing formal instruc-
                         tions for this change.




Information              The Internet has emerged as a powerful tool for communicating large
Technology               amounts of information on Federal activities and services. At the same
                         time, however, the Internet has made it possible for web sites to track
                         and collect personally identifiable datasuch as an individuals name, e-
                         mail address, Social Security number, or credit card numbermaking
                         online privacy one of the key and most contentious issues in this infor-
                         mation age.
                              In response to recent legislation, OIG conducted a review to evalu-
                         ate the Departments practices regarding the collection of personally
                         identifiable information through the use of cookies or other means on
                         its public web sites. A cookie is a small text file that allows a server to
                         track online purchases, maintain and serve customized web pages, or
                         build profiles on individual site visitors.
                              OIG found that the Departments policies restrict the use of persis-
                         tent cookies on its public web sites without agency head approval as re-
                         quired by Federal online privacy guidelines prescribed by the Office of
                         Management and Budget. Despite the Departments Internet privacy re-
                         strictions, OIG found several Department web sites that were using per-
                         sistent cookies without proper authorization. Web managers agreed to
                         take steps to remove or seek the Secretarys approval for the nine persis-
                         tent cookies that OIG discovered. OIG found no evidence that any of
                         the persistent cookies were used to collect personal data on site visitors.
                             The Department recognizes that it needs to strengthen web site
                         management across the organization and has established a permanent,
                         senior-level Internet Steering Committee. OIG recommends that the


OIG Semiannual Report to the Congress, October 1, 2000, to March 31, 2001                          3
                   Department establish a small Internet Program Office within the Office
                   of the Under Secretary for Public Diplomacy and Public Affairs to sup-
                   port the Internet Steering Committee in overseeing and coordinating
                   web sites on a Departmentwide basis.



Financial          The Department has made significant improvements in the area of
Management         financial management. However, serious problems persist, representing
                   a challenge to Department operations. For the first time, the Depart-
                   ment submitted its FY 2000 Financial Statement with the required OIG
                   audits to the Office of Management and Budget by the March 1 dead-
                   line. OIGs FY 2000 financial statement audit gave the Department an
                   unqualified opinion, which means that its financial statements were free
                   of material misstatements.
                       Nevertheless, in preparing this years audit of the Departments fi-
                   nancial statement, OIG reported significant potential weaknesses related
                   to information systems security that will require continued attention.
                   The network needs to be retested, and the Department is currently mak-
                   ing arrangements for an independent evaluation of the network. In addi-
                   tion, OIG findings of significant vulnerabilities at one overseas facility
                   resulted in extensive preventive maintenance to secure the mainframe
                   and provide improved overall physical security at other locations.

                   Assistance Program
                   Increasingly, the Department must manage and provide oversight for
                   significant grants and other Federal programs in areas where, in the past,
                   its responsibilities were largely confined to policy formulation and imple-
                   mentation. Economic Support Fund activities, traditionally administered
                   by the U.S. Agency for International Development (USAID), are increas-
                   ingly being managed by the Department in countries where there is no
                   USAID operation. In addition, as a result of consolidation with USIA,
                   the Department is now responsible for a wide variety of educational
                   and cultural programs totaling over $200 million.
                       OIG is currently working with Department managers to identify the
                   scope and magnitude of assistance programs under its purview to assist
                   in establishing uniform policies and procedures for issuing and managing
                   these funds. For example, as part of an overall effort to review Freedom
                   Support Act assistance to the New Independent States, OIG examined
                   14 grants totaling about $5 million awarded by the former USIA to the
                   Mississippi Consortium for International Development. OIG questioned
                   a total of about $1.2 million of which $1.13 million was unallowable



4            OIG Semiannual Report to the Congress, October 1, 2000, to March 31, 2001
                         under the terms of the grant. Since these deficiencies could apply to
                         other Federal awards received by the grantee, the savings to the U.S.
                         Government could be much higher.




Foreign Policy           OIG inspections evaluate the effectiveness of the ambassador in manag-
                         ing post operations and in coordinating the activities of all agencies at
                         post. In FY 2001, OIG has tailored its inspection program specifically to
                         assess how well ambassadors are overseeing and coordinating intelligence
                         and law enforcement activities at missions with significant counter-
                         narcotics programs or law enforcement activities.

                         Chief of Mission Authority
                         Several recent reports on the management of U.S. foreign affairs, includ-
                         ing the report of the Overseas Presence Advisory Panel and the Inde-
                         pendent Task Force report on State Department Reform, have recom-
                         mended strengthening chief of mission authority to direct, coordinate,
                         and oversee activities of all agencies operating at an embassy. These ac-
                         tivities include foreign assistance programs, intelligence activities, and law
                         enforcement operations. As the Presidents representative, our ambassa-
                         dors must have the tools they need to provide effective leadership for the
                         achievement of multifaceted foreign policy goals and for the advance-
                         ment of U.S. interests.
                             Several of OIGs recent inspections have focused on the oversight
                         and coordination of intelligence and law enforcement activities. For ex-
                         ample, OIG found that Embassy Caracas had done an impressive job
                         of helping to guide U.S. policy through a major transition in Venezuelan
                         politics. However, the post needed to fully integrate narcotics control
                         activities in Venezuela with related programs conducted by U.S. missions
                         in neighboring countries. The lack of coordination reduced the effective-
                         ness of the overall effort. By contrast, at Embassy Bogota, Colombia,
                         interagency coordination was rigorous and effective.
                             OIGs inspection of Embassy Panama City, Panama, found that, al-
                         though embassy components were in different locations, overall inter-
                         agency cooperation at the post was excellent and included broad partici-
                         pation from all mission elements. However, the post was managing with
                         mixed results an array of programs aimed at helping Panama meet the
                         challenges of providing for its own defense, including security for the
                         canal and defense against threats posed by guerilla and paramilitary
                         groups from Colombia crossing into Panama.



OIG Semiannual Report to the Congress, October 1, 2000, to March 31, 2001                            5
                      OIGs inspection of Embassy Bratislava, Slovakia, found that the
                  Embassy focused its policy implementation on three Department goals
                  including regional security, economic development, and democracy. OIG
                  noted that overall management of the post and greater chief of mission
                  engagement was needed in such areas as political-military affairs and law
                  enforcement.




Human             Recruitment, retention, and professional training for Department
Resources         Foreign Service and Civil Service employees are critical issues. Although
                  the Department is beginning to develop the workforce planning needed,
                  it has far to go. OIGs recent inspection of the Departments Bureau of
                  European Affairs found an absence of good workforce management,
                  difficulty in recruiting and retaining officers and clerical staff, and a need
                  to increase project management skills. Understaffing had led to gaps in
                  recruitment. This Bureau was being forced to rely on rehired annuitants,
                  contractors, and interns to compensate for the lack of full-time employ-
                  ees. Officers were spending unnecessarily long hours drafting and clear-
                  ing papers without sufficient guidance to ensure that they were relevant
                  to policymakers. OIG has found this pattern elsewhere in the
                  Department and overseas.
                       Recent OIG inspections in West Africa revealed that inadequate
                  training and support for first-tour officers in consular positions has led to
                  lapses in nonimmigrant visa management at some posts. Consular officer
                  positions at small hardship posts such as Bamako, Mali, and Conakry,
                  Guinea, are hard to fill and almost always are staffed by directed as-
                  signments of inexperienced first-tour junior officers. OIG found these
                  officers ill-prepared to deal with the sophisticated alien smuggling opera-
                  tions and visa fraud pervasive in the region. OIG recommendations to
                  counter this problem have led to establishing new regional consular of-
                  ficer positions to improve oversight of these small posts, and the devel-
                  opment of new training programs specifically designed for entry level
                  officers at one-officer posts. The Bureau of Consular Affairs has up-
                  graded training for consular officers and circulated information among
                  its consular sections on patterns of fraud. A more fully integrated data
                  system would utilize advances in electronic storage and retrieval of visa
                  records, making visa fraud easier to detect.
                          OIGs review of the Civil Service to Foreign Service Hard-to-Fill
                  Program found that the program has been useful in reducing the impact
                  of severe Foreign Service staffing shortages and enhancing work experi-
                  ences for Civil Service employees. The program is worth continuing.



6           OIG Semiannual Report to the Congress, October 1, 2000, to March 31, 2001
                         However, it is only one of several programs designed to deal with funda-
                         mental problems in workforce planning, management, and personnel
                         shortages.
                             OIG is still concerned that the Departments workforce planning re-
                         mains fragmented. It lacks linkages to strategic planning processes and is
                         focused almost exclusively on the Foreign Service component of its
                         workforce. As a result, the Department is still poorly positioned to de-
                         fine and defend the personnel requirements it needs to implement U.S.
                         foreign policy objectives and strategies. Based on inspection findings,
                         OIG believes that the Department should better integrate the Foreign
                         and Civil Services. One direction the Department should consider is
                         greater assignment integration. The Department should also expand
                         training and professional opportunities for both services.

                         Foreign Service National Retirement System
                         Many Foreign Service national (FSN) employees do not have adequate
                         retirement plans. Often, the local social insurance systems to which em-
                         bassies and the FSNs contribute do not provide the benefits promised.
                         The FSN pension issue and the problem it represents for our embassies
                         have been cited in many post inspection reports throughout the last de-
                         cade, and most recently in OIG inspections of Bamako, Mali; Dakar,
                         Senegal; and Sarajevo, Bosnia-Herzegovina.
                              In response to OIG recommendations, the Department has explored
                         a variety of ways to establish an alternative FSN retirement plan, includ-
                         ing establishing an offshore retirement account, but has encountered sig-
                         nificant legal difficulties related to the technical aspects of managing re-
                         tirement funds. OIG would fully support a legislative initiative by the De-
                         partment to resolve this issue.



Strategic Planning       Overall the Departments strategic planning process is improving, al-
                         though it does not yet fully comply with the Government Performance
                         Results Act. OIG has highlighted the need for improved performance
                         information in the Departments bureau-level plan. The Department has
                         still not developed overall priorities for its strategic goals and conse-
                         quently has no overall basis for allocating resources to those priorities.



International            OIG reviewed the BBGs transition to an independent Federal entity.
Broadcasting             BBG independence did not result in any significant broadcasting
                         changes. However, BBG made a number of organizational changes to


OIG Semiannual Report to the Congress, October 1, 2000, to March 31, 2001                           7
          incorporate some functions previously performed by the USIA, includ-
          ing legal counsel, contracting, security, and civil rights. Several opera-
          tional issues remained unresolved with the Department in connection
          with independence. OIG found that BBG and the Department have not
          come to agreement on a Memorandum of Understanding on future
          operating arrangements. Two key areas that hinder resolution of the
          Memorandum include BBGs level of support for the Departments in-
          teractive and other diplomacy programming and the extent of chief of
          mission authority over Voice of America correspondent travel overseas.
          Lack of resolution of these issues is delaying important communications
          to overseas posts concerning how the new BBG and the Department
          will work together. OIGs report recommends that BBG and the De-
          partment finalize outstanding operational agreements and resolve their
          differences.




8   OIG Semiannual Report to the Congress, October 1, 2000, to March 31, 2001
Congressional Planning and Outreach

Testimony                The Acting Inspector General testified on March 15 before the House
                         Committee on Government Reform Subcommittee on National Secu-
                         rity, Veterans Affairs, and International Relations. Testimony was pre-
                         sented by a panel of Inspectors General for USAID, the Peace Corps,
                         the U.S. International Trade Commission as well as the OIG for the De-
                         partment of State and BBG. This panel was part of broader oversight
                         hearings convened by the subcommittee covering nine departments and
                         agencies that focused on the major management challenges and high
                         risk operations in national defense, and international relations pro-
                         grams. In her testimony, Acting Inspector General Sigmund noted real
                         progress on the part of the Department in addressing key management
                         challenges. She described major management issues as:
                              strengthening chief of mission oversight to provide the leader-
                         ship of multifaceted foreign policy goals;
                             maintaining adequate security for protecting people, information,
                         and facilities overseas and refining global security initiatives;
                              correcting information systems security deficiencies identified in
                         financial management systems notwithstanding the significant improve-
                         ments in overall financial management; and
                             identifying overall priorities for the Departments strategic goals
                         and devising a better process to link resources with those priorities.
                             The Acting Inspector General described BBGs major management
                         issue as developing a plan that comprehensively addresses its delivery
                         systems and the need for surge capacity to support U.S. foreign policy
                         objectives during a crisis.



Congressional            In response to a request from the House Majority Leader, the Chairman
Requests and             of the House Committee on Budget, the House Committee on Govern-
Comments                 ment Reform, the Senate Committee on Budget and the Senate Com-
on Proposed              mittee on Governmental Affairs, the Inspector General reported on the
Legislation              major management challenges facing the Department and the BBG.
                             In response to a request from the Chairman of the House Commit-
                         tee on Government Reform, OIG reported on potential overpayments
                         to government contractors over the past 3 to 5 years in connection with
                         proposed legislation to conduct recovery audits of specified contracts.



OIG Semiannual Report to the Congress, October 1, 2000, to March 31, 2001                           9
                         OIG has reviewed the following proposed legislation:
                         H.R. 44 and S. 870  to amend the Inspector General Act of 1978,
                     which included provisions proscribing the receipt of awards or bonuses
                     to Inspectors General, requiring an external review of OIG operations
                     every 3 years, and providing for an annual rather than semiannual report
                     to Congress.
                         S 1707  amendments to the IG Act to authorize an IG criminal
                     investigator academy and forensic laboratory.
                         S 3030  proposed Audit Recovery Act.
                         H.R. 374  to establish a 2-year commission to review information
                     from OIG, the General Accounting Office, and Congressional Budget
                     Office and report to the President and Congress on recommendations to
                     reduce government waste.
                          H.R. 199  Law Enforcement Officers Privacy Protection Act  to
                     amend the Federal Rules of Civil Procedure to enhance the confidential-
                     ity of personal information of law enforcement officers.
                         H.R. 4857 Privacy and Identity Protection Act of 2000  to protect
                     the privacy of individuals with respect to their social security numbers.
                         Administrative Dispute Resolution Act of 1996  review of report
                     for public comment by Federal ADR Steering Committee on reasonable
                     expectations of confidentiality under this statute.



OIG Outreach         Over the past several months, the Inspector General and members of
                     the OIG Executive Staff have met with law enforcement and audit pro-
                     fessionals from a number of countries to share best practices and meth-
                     odologies for establishing and strengthening internal controls, establish-
                     ing and promoting professional standards, and ensuring greater account-
                     ability in government programs and operations. These sessions have in-
                     cluded representatives from the Ukraine, the Republic of Croatia, Arme-
                     nia, Chile, El Salvador, Honduras, Guatemala, and Japan.
                         Pursuant to a Memorandum of Agreement with the Republic of
                     Argentina signed in June 2000 by the Secretary of State on behalf of the
                     United States and the Minister for Foreign Affairs on behalf of the Re-
                     public of Argentina, the Inspector General and the OIG Executive Staff
                     hosted meetings with representatives of the Argentine Anticorruption
                     Office. These discussions focused on auditing policies and procedures,
                     implementation of public financial disclosure reporting requirements
                     for government officials, and followup procedures to ensure compliance
                     with these procedures. Discussions also covered methods for enforcing
                     overall adherence to ethical standards among government officials,


10             OIG Semiannual Report to the Congress, October 1, 2000, to March 31, 2001
                         policies and procedures under the Freedom of Information Act for
                         handling public disclosure of inspector general reports, reporting re-
                         quirements to Congress, and procedures to enforce the provisions of
                         the Whistleblower Protection Act.
                             In December, the Assistant Inspector General for Audits and the
                         Assistant Inspector General for Inspections met with auditors and in-
                         spectors from the UN Office of Internal Oversight to discuss best prac-
                         tices and methodologies for program performance evaluations, compli-
                         ance followup, and coordinating of joint audit and inspection projects.
                              In November, the Inspector General and members of the OIG Ex-
                         ecutive Staff traveled to the Peoples Republic of China to continue dis-
                         cussions with the Ministry of Supervision to develop effective tools to
                         combat waste, fraud, and abuse in government operations. During this
                         visit, the Inspector General met with senior officials in the Foreign Af-
                         fairs Department of the Ministry of Supervision, to discuss implement-
                         ing and enforcing conflict of interest rules for government officials. In
                         meetings with the General Anticorruption Bureau of the Procuratorate,
                         the Inspector General discussed roles and guidelines for investigating and
                         prosecuting illegal activities. And in meetings with the Legislative Affairs
                         Commission of the National Peoples Congress as well as officials in the
                         Province of Zhejiang and Shanghai, the Inspector General discussed a
                         variety of issues concerning the conduct of investigations, whistleblower
                         protection, privacy rights, and mechanisms for greater transparency in
                         government processes.
                             In addition, the Inspector General and members of the OIG Execu-
                         tive Staff attended the First Symposium of the International Commission
                         Against Corruption in Hong Kong. Delegates from over 30 countries as
                         well as representatives from international and regional government orga-
                         nizations and international businesses attended the session to discuss
                         methods to detect and prevent corrupt practices.




OIG Semiannual Report to the Congress, October 1, 2000, to March 31, 2001                         11
                 U.S. Department of State

                Financial Management and Administration . . . . . . . . . . . . . . . . . .                              17
                Foreign Policy . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .         25
                Security . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   41
                Human Resources . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .              43
                Information Technology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                 45
                Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .       47
                Appendix 1: Investigative Activities . . . . . . . . . . . . . . . . . . . . . . . .                     55
                Appendix 2: Reports Issued . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                   56
                Appendix 3: Savings and More Effective Use of Resources
                    Table 1: Questioned Costs . . . . . . . . . . . . . . . . . . . . . . . . . . . .                    58
                    Table 2: Funds Put to Better Use . . . . . . . . . . . . . . . . . . . . . . .                       59
                Appendix 4: Resolution of Reports & Recommendations
                    Previously Reported Significant Audit Recommendations . . .                                          60
                    Audit Reports Pending Management Decision . . . . . . . . . . . .                                    61




OIG Semiannual Report to the Congress, October 1, 2000, to March 31, 2001                                                     15
Financial Management and Administration

                         In the area of Financial Management and Administration, OIG per-
                         formed audits and inspections of Department and BBG programs to
                         ensure they have the necessary financial systems and support services to
                         meet operational needs and Federal requirements.



Assistance               Review of Selected Awards to Mississippi
Program                  Consortium for International Development
                         for Activities in the New Independent States
                         (01-FMA-R-016)
                         As part of an overall effort to review Freedom Support Act assistance to
                         the New Independent States, OIG examined 14 grants totaling about
                         $5 million awarded by the former USIA to Mississippi Consortium for
                         International Development. OIG reviewed costs claimed and/or in-
                         curred for 1995 through July 18, 2000. The primary purpose was to de-
                         termine if the Consortium adequately (1) accounted for Federal funds,
                         (2) complied with applicable Federal laws and regulations related to the
                         terms and conditions of the agreement, and (3) evaluated its New Inde-
                         pendent States programs. In addition, OIG reviewed the grantees claims
                         for reimbursement of indirect costs for FY 1995-99. OIG found the
                         following:
                               The Consortium did not always adequately account for Federal
                         funds. OIG identified instances of inaccuracies and inconsistencies be-
                         tween the financial data recorded in the grantees official accounting
                         records and the amounts reported in the certified financial reports and
                         its annual single audit reports. As a result, OIG questioned costs totaling
                         about $1.2 million. Of that amount, $1,130,294 was unallowable under
                         terms and conditions of the grant, and $20,500 was classified as unsup-
                         ported because of either inadequate or a lack of documentation. Be-
                         cause these deficiencies could apply to other Federal awards received by
                         the grantee, the savings to the U.S. Government could be much higher.
                         However, due to the limited scope, OIG could not project the cost sav-
                         ings to the entire universe.
                              Internal controls were deficient. Weaknesses included bank bal-
                         ances that exceeded insured amounts, outdated written accounting poli-
                         cies and procedures, and a lack of separation of duties within the orga-
                         nizational structure.



OIG Semiannual Report to the Congress, October 1, 2000, to March 31, 2001                        17
                The Consortium did not comply with applicable regulations and
           agreements. Examples include: untimely or incomplete reporting includ-
           ing the submission of indirect cost rate proposal packages, failure to
           meet cost share provisions, inadequate approval of time sheets, expired
           agreements, incomplete personnel records, and inadequate property ac-
           countability.
                Although the Consortium did not have written procedures for
           evaluating program results, its final program reports did facilitate evalua-
           tion.
              OIG recommended that the Bureau of Educational and Cultural
           Affairs require the Consortium to reimburse the Department for
           unallowable costs and provide additional documentation for the unsup-
           ported costs.

           Audit of the National Endowment for
           Democracy (01-FMA-M-031)
           The National Endowment for Democracy Act (Public Law 102-138),1 as
           amended, mandates that OIG audit the annual financial transactions of
           the National Endowment for Democracy. In this audit, OIG reviewed
           the Endowments transactions for FY 1997-99. The primary purpose
           of the audit was to determine whether the Endowment adequately ac-
           counted for Federal funds and complied with laws, policies, regulations,
           and terms of the agreements. We also assessed whether the Endowment
           had implemented the recommendations from OIGs previous audit re-
           port.
                OIG found that, in general, the Endowment adequately accounted
           for Federal funds. Review of the work performed by the independent
           auditors disclosed that the annual audit reports prescribed by Office of
           Management and Budget Circular A-133 had no material findings and
           assessed the Endowment as a low-risk grantee. The Endowment moni-
           tored its core grantees through desk reviews of their Circular A-133 au-
           dit reports and through on-site compliance reviews. The Endowment
           also performed timely monitoring of its discretionary grantees. How-
           ever, the Endowments compliance with its own travel policy needs im-
           provement. In addition, the Endowment had implemented all recom-
           mendations from OIGs previous audit report.


           _____________
           1
            This provision applied to the OIG for USIA. On October 1, 1999, the U.S.
           Information Agency and the Department of State were consolidated. Under the
           consolidation, the Endowment reports to the Bureau of Educational and
           Cultural Affairs.


18   OIG Semiannual Report to the Congress, October 1, 2000, to March 31, 2001
Financial                Audit of U.S. Department of State 2000
Statements               Principal Financial Statements (01-FMA-R-013)
                         The Government Management Reform Act requires that the
                         Departments Principal Financial Statements be audited. The objective
                         of the audit is to report on whether the financial statements fairly
                         present the Departments financial position and results of financial op-
                         erations in accordance with generally accepted accounting principles, to
                         determine whether the Department had an internal control structure
                         that provided reasonable assurance of achieving internal control objec-
                         tives, and to determine whether the Department complied with appli-
                         cable laws and regulations.
                             Under OIGs direction, an independent external firm audited the
                         Departments 2000 Principal Financial Statements. Although an unquali-
                         fied opinion was issued, the report brought to managements attention
                         concerns with security over the unclassified network and the Paris Ac-
                         counting and Disbursing System; the inadequacy of internal controls
                         over the management of unliquidated obligations; the implementation
                         of managerial cost accounting standards; and the inadequacy of the
                         Departments financial and accounting system. The financial and ac-
                         counting system was also noncompliant with several laws and regula-
                         tions, including the Budget and Accounting Act of 1950, the Federal
                         Managers Financial Integrity Act, the Chief Financial Officers Act of
                         1990, and the Federal Financial Management Improvement Act.

                         Vulnerability and Penetration Testing Analysis of
                         the Unclassified Automated Information Systems
                         at the Bangkok Financial Service Center
                         (01-FM-004)
                         The Government Management Reform Act requires the Departments
                         financial statements to be audited annually. At OIGs direction, a certi-
                         fied public accounting firm performed the audit of the Departments
                         FY 1999 Principal Financial Statements. Audits of the financial state-
                         ments require, among other things, understanding and assessing the
                         adequacy of the internal control process for recording, accumulating,
                         and reporting financial data. This, in turn, requires an assessment of the
                         security over the automated systems that process financial data. The ac-
                         counting firm, in conjunction with its subcontractor, performed an as-
                         sessment of security controls on the sensitive but unclassified automated
                         information system at the Bangkok Financial Service Center, including a
                         vulnerability and penetration testing analysis.



OIG Semiannual Report to the Congress, October 1, 2000, to March 31, 2001                       19
                          Overall, the subcontractor was unable to compromise the mainframe
                     security and concluded that the overall physical security was excellent.
                     The subcontractor believed that, in response to concerns raised in an
                     earlier audit conducted at the Financial Service Center in Paris, the
                     Bangkok Financial Service Center had spent a considerable amount of
                     time in preventive maintenance to secure its local area network and iden-
                     tify any intrusion.

                     Federal Agencies Centralized Trial-Balance
                     System Agreed-Upon Procedures Report
                     (01-FMA-L-023)
                     The Department of the Treasury annually prepares and submits to the
                     President and Congress an audited financial statement covering all execu-
                     tive agencies. Each agency is required to furnish certain financial and op-
                     erational information to the Department of the Treasury through the
                     Federal Agencies Centralized Trial-Balance System (FACTS). The Chief
                     Financial Officer of the agency must compare the information submitted
                     through FACTS with the agency financial statement and explain any dif-
                     ferences identified.
                         Under OIGs direction, a certified public accounting firm performed
                     required procedures solely to assist the Department of the Treasury, the
                     General Accounting Office, and the Office of Management and Budget to
                     evaluate managements assertion that it compared the Summarized FACTS I
                     Data to the related information in the State Departments consolidation au-
                     dited financial statements as of and for the year ended September 30, 2000.
                     The firm determined that FACTS data were in agreement with the De-
                     partments statements except for a calculation error in Treasurys Account
                     Groupings Worksheet: Statement of Net Cost.



Procurement/         Inquiry into the Procurement of Contractor
Contracting          Support for the International Affairs Global
                     Resource Database (01-PP-002)
                     At the request of the Secretary of State, OIG conducted an inquiry into
                     alleged improprieties in the Departments procurement of software sup-
                     port services for the International Affairs Global Resource Database
                     project. OIG examined how one company came to be a subcontractor to
                     the Department, whether the Department complied with Federal compe-
                     tition requirements in obtaining this companys services, and whether
                     security requirements were followed. OIG also examined the
                     Departments contract administration practices in overseeing this pro-
                     curement.


20             OIG Semiannual Report to the Congress, October 1, 2000, to March 31, 2001
                              OIG found that the Department complied with competition re-
                         quirements, but the contract arrangement may not have been in the best
                         interest of the government. Another contractor served as a contract
                         vehicle for the subcontractors services and did not exercise appropriate
                         oversight for a prime contractor. Department personnel complied with
                         security regulations in place at the time regarding the subcontractors
                         work on the project. Nonetheless, the Department has addressed poten-
                         tial security weaknesses in procedures regarding facility access and its
                         software development policies.
                             OIG found several significant contract administration shortcomings
                         on this procurement by both the Department and the prime contractor.
                         Contractors working lengthy periods of time without authorization and,
                         hence, at their own risk; delivery orders paying for prior work rather than
                         the period ordered; inadequate attention to monitoring contract ceiling
                         amounts; inadequate communication between the contracting officer, the
                         contracting officers representative, and task managers; and inadequate
                         program support. These factors all contributed to a contract administra-
                         tion environment that allowed an unauthorized financial commitment of
                         over $500,000 by the government to occur on this procurement.
                             Major recommendations are that the Office of the Procurement
                         Executive clarify guidance to Department officials on stating preferences
                         for subcontractors to prime contractors, that the Office of Logistics
                         Management assure, to the extent practical, that only one contracting
                         officers representative is appointed for each procurement, and that
                         the task managers are informed in writing of their authorities and
                         responsibilities.

                         Review of Humanitarian Demining
                         Management and Procurement Activities
                         (01-PP-003)
                         At the request of the Bureau of Political-Military Affairs, Office of Hu-
                         manitarian Demining Programs (PM/HDP), OIG reviewed demining
                         procurement activities. The primary purpose was to evaluate the effec-
                         tiveness of PM/HDP in procuring and accounting for demining supplies
                         and services. This included the review of controls over financial assis-
                         tance, equipment, and services purchased with Nonproliferation, Antiter-
                         rorism, Demining, and Related Projects funds, as well as coordination
                         and planning. OIG also examined the performance-based contract re-
                         cently awarded by PM/HDP used to obtain demining supplies and ser-
                         vices. OIG found a need for improved planning and coordination be-
                         tween PM/HDP and posts. OIG also determined that controls over fi-
                         nancial assistance and equipment need to be strengthened. In addition,



OIG Semiannual Report to the Congress, October 1, 2000, to March 31, 2001                       21
           OIG found that PM/HDP could improve oversight of contracts and
           grants awarded for demining supplies and services.
              Major recommendations include implementing a Memorandum of
           Agreement between PM/HDP and posts, strengthening property ac-
           countability policies and procedures, developing a manual to be used by
           post officials, and coordinating purchases to obtain quantity discounts.

           Review of the War for Talent Personnel Study
           (01-FMA-M-009)
           In response to a congressional request, OIG reviewed questions related
           to an award of a contract for a personnel study of the Department,
           titled War for Talent. OIG examined several questions relating to the
           propriety of the contract arrangements, the studys cost and value, and
           access to data generated by the study. The War for Talent study was com-
           pleted in March of 1999.
               In general, OIG found that the Department complied with applicable
           Federal procurement regulations in obtaining contractor services for this
           study. OIG did not identify any inappropriate high-level involvement in
           the procurement decision or attempt by senior Department officials to
           influence or otherwise compromise the independence of the contracting
           officer. In addition, we found that much of the information generated by
           the study could not have been obtained from studies conducted by other
           Federal agencies. We also found that the delivered product provided rea-
           sonable value to the Department, and the study continues to generate
           productive discussion and activity.
               However, one shortcoming we did note was that the parties to the
           contract did not have a clear agreement on distribution of the studys
           results within the government. This confusion led the Department to
           restrict the full access initially requested by a senior congressional staff
           member for this study. OIG recommended that the Department conduct
           a legal review to resolve how information from this study will be treated.




22   OIG Semiannual Report to the Congress, October 1, 2000, to March 31, 2001
Administrative           Water and Sewer Payments to the District of
Activity                 Columbia (01-FMA-L-015)
                         The Consolidated Appropriations Act required the Office of Inspector
                         General to submit a report to Congress analyzing the Departments
                         promptness in paying for water and sanitary sewer services provided by
                         the District of Columbia.
                             The Department of the Treasury annually provides State with an
                         estimated bill for water/sewer service that is adjusted as needed for prior
                         years differences. Treasury uses the On-line Payment and Collection sys-
                         tem to automatically collect these funds from State on a quarterly basis.
                         Both State and Treasury officials informed OIG that transfers from State
                         had always been prompt and complete and State did not have any pay-
                         ment in arrears. OIG believes that the methodology used to transfer wa-
                         ter/sewer payments to Treasury is adequate and does not expect an in-
                         stance where the transfer of funds would be untimely.

                         Application of Agreed-Upon Procedures Report
                         (01-FM-006)
                         Under OIGs direction, a certified public accounting firm performed
                         required procedures solely to assist the Office of Personnel Management
                         in assessing the reasonableness of Retirement, Health Benefits, and Life
                         Insurance withholdings/contributions as well as semiannual headcount
                         information submitted by the Department. The sufficiency of the proce-
                         dures was solely the responsibility of the Office of Personnel Manage-
                         ment. We were not asked to, and did not, perform an audit on the
                         withholdings or contributions; thus, we did not express an opinion on
                         these accounts.




OIG Semiannual Report to the Congress, October 1, 2000, to March 31, 2001                        23
Foreign Policy

                         In the area of Foreign Policy, OIG provides oversight to ensure that the
                         Department effectively plans, coordinates, and manages U.S. foreign
                         policy to advance national interests. OIG also provides oversight to en-
                         sure that BBG carries out international broadcasting initiatives consistent
                         with foreign policy and national interests.



Domestic                 Bureau of European Affairs (01-FP-R-003)
Inspection
                         Despite considerable stress from workload pressures and resource con-
                         straints, the Bureau of European Affairs (EUR) was performing at a high
                         level overall. The principal relationships it overseeswith the North
                         Atlantic Treaty Organization (NATO), the European Union (EU), and
                         key alliesare important but labor intensive.
                             Although the long-range agendas of NATO and EU drive strategic
                         planning in some offices, day-to-day activities and crises consumed the
                         time and resources of many EUR offices. The Mission Performance Plan
                         and Bureau Performance Plan process had not yet matured to the point
                         of effectively setting priorities or allocating resources.
                              The integration of the public diplomacy function within EUR is a
                         model of its kind, replete with positive examples drawn from press ac-
                         tivities and crisis situations. Nonetheless, EUR had much work remaining
                         to give public diplomacy the role it warrants in planning and implement-
                         ing foreign policy.
                              Reporting and analysis have fallen off at many European posts be-
                         cause EUR saw a decreased need for reporting on West European coun-
                         tries with transparent economic and political systems. This deprived the
                         Department of sufficient context for key policy decisions. Country desks
                         needed to play a more active role in guiding reporting through Mission
                         Performance Plans and post reporting plans.
                              The Departments Foreign Service and Civil Service personnel
                         systems were not able to provide EUR the people needed to carry out
                         its responsibilities. EUR has been compelled to recruit retired employ-
                         ees, interns, and contractors. However, EURs professional and dedicated
                         workforce was ill served by an entrenched system of practices and values
                         that discouraged delegation of authority and promoted form over
                         substance.



OIG Semiannual Report to the Congress, October 1, 2000, to March 31, 2001                       25
                        The Office of the Executive Director has provided excellent admin-
                   istrative support to EUR and New Independent States posts abroad. In
                   order to match resources with demands, the Office of the Executive
                   Director developed several innovative programs to use EUR human and
                   financial resources more effectively. Domestically, EUR employees gave
                   high marks to the Office of the Executive Directors performance over-
                   all, but would have liked faster responses from some units.
                        Some EUR country offices operate in a high-risk environment from
                   a management controls perspective. EURs work environment is suscep-
                   tible to waste and mismanagement because of the complexity of its pro-
                   grams, frequent and tight deadlines, confused lines of authority, the high
                   number of Presidential and Secretary of State visits it supports, and the
                   highly sensitive information it handles. In addition to traditional policy
                   direction, country offices were managing sizable assistance and peace-
                   keeping programs without the administrative infrastructure to adequately
                   oversee them.



Eastern Europe     Embassy Sarajevo, Bosnia-Herzegovina
Inspections        (01-FP-R-011)
                   Embassy Sarajevos Mission Performance Plan was entirely derived from
                   the Dayton Peace Agreements all encompassing objectives. Strategy and
                   objectives were, for the most part, clearly defined and vigorously pur-
                   sued, but omissions resulted from the Departments suggestion of limits
                   on the Mission Performance Plan content. The Embassys strong leader-
                   ship, clear policy focus, and hard work by a dedicated staff have been
                   essential to the reforms and institutionalizations that have been achieved.
                   Even so, the countrys complex, dynamic, and lingering Bosnian opposi-
                   tion to the Agreements aims will test American steadfastness as interna-
                   tional assistance declines.
                       As Bosnia-Herzegovina stabilizes under the international
                   communitys oversight, the Embassy should normalize operations, which
                   are currently in crisis mode. The present supervisory structure in the De-
                   partment is a vestige of a time when day-to-day business with Bosnia was
                   conducted from Washington. The branch offices in Mostar and Banja
                   Luka have evolved from reporting outposts into policy implementation
                   assets and need to be more integrated into Embassy activities.
                       Consular services were well delivered, but an increasing workload
                   may make more resources necessary. Two different refugee programs are
                   administered by the Mission, one by the consular section and another by
                   the Refugee Action Center, which monitors the refugee resettlement
                   work funded by the Department. Funding for the latter was threatened
                   with a severe cutback at a crucial time just as the rate of refugee returns

26           OIG Semiannual Report to the Congress, October 1, 2000, to March 31, 2001
                         was gaining significant momentum. The Embassy should seek Depart-
                         ment support to restore this funding to an adequate level.
                              Like other Embassy operations, public diplomacy focused on Day-
                         ton-derived objectives and provided good, active support to the Chief of
                         Mission. One major activity, a civic education program, was carried out
                         by a nongovernmental organization grantee whose status should be regu-
                         larized and included in the public affairs section. Consolidation was in-
                         complete and needed improvement.
                             A service-oriented, effectively led administrative office benefited
                         from a hard-working and dedicated staff and did excellent work. The
                         Embassy and the Department should pursue normalization in such areas
                         as support for other agencies, human resources, Foreign Service national
                         issues including their need for a retirement program, and badly needed
                         office and warehouse space.

                         Embassy Bratislava, Slovakia (01-FP-R-012)
                         In keeping with the U.S. objective of encouraging Slovakias pro-Western
                         tendencies, Embassy Bratislava focused its policy implementation on
                         three of the Departments program goalsregional security, economic
                         development, and democracy. Of these, economic development has
                         moved to the forefront of Embassy priorities. Leadership in this area
                         was strong, and the Embassys activities on these issues were welcomed
                         by the Slovak Government. However, overall management of the post
                         was, like the country itself, still in transition. The Ambassador and
                         deputy chief of mission needed a clearer definition of the latters role.
                              Embassy Bratislava is a small, hardworking but overextended post.
                         Its ambitious Mission Performance Plan articulated well the principal
                         U.S. objectives in a country in transition to Euro-Atlantic institutions.
                         OIG recommended that the Embassy review the plan to ensure that
                         goals are aligned with the posts limited resources. Policy implementation
                         benefited from the new Ambassadors involvement of nongovernmental
                         assets in pursuit of his goals, but priorities needed to be established to
                         ensure that the posts scarce resources are devoted to the projects that
                         are most relevant to the Mission Performance Plan objectives.
                             Greater front office engagement was needed in such areas as politi-
                         cal-military affairs and law enforcement. Combining the political and eco-
                         nomic sections should maximize reporting efficiency and result in clearer
                         lines of responsibility, closer supervision, and better coordination.
                             Program aspects of public diplomacy were well-managed and closely
                         keyed to Mission Performance Plan objectives, particularly economic de-
                         velopment and democracy. The information resource center deserved its
                         excellent reputation. Prior U.S. Information Service management failed
                         to adhere to Department guidelines concerning the consolidation of

OIG Semiannual Report to the Congress, October 1, 2000, to March 31, 2001                       27
           U.S. Information Service staff with the Department. The Embassy
           should review position descriptions for the public affairs section staff
           and revise them to reflect program requirements.
               Consular operations were well directed. A troubling increase in the
           incidence of visa fraud required the preparation of an action plan that
           incorporates several OIG suggestions for procedural and staffing
           changes in the nonimmigrant visa unit and the creation of a permanent
           antifraud unit.

           Embassy Sofia, Bulgaria (01-FP-R-021)
           Embassy Sofias substantial role in policy formulation and implementa-
           tion was focused and effective, centering on national security and democ-
           ratization. The Chief of Mission fostered a marked interagency collegial-
           ity, which facilitated policy operations. Post management was well-liked,
           and morale was good. However, closer front office oversight of the ad-
           ministrative section would improve its performance and professionalism.
               Relations with Bulgaria are good. U.S. policy sees the country as an
           oasis of stability in a zone of potential and actual conflict, and it bolsters
           this position by furthering the consolidation of Bulgarian democracy and
           economic reform. The United States welcomes Bulgarias demonstrated
           role in regional security and assumes for policy purposes that the encour-
           aging political and economic trends of today will remain in place, what-
           ever the results of upcoming elections. It also accepts that the process is
           not perfect. Aid and encouragement both help prepare the country for
           North Atlantic Treaty Organization and European Union membership,
           while patient perseverance is needed to help it overcome systemic weak-
           nesses like pervasive crime and corruption. Mission Performance Plan
           objectives were in tune with these considerations.
               Substantive reporting sufficiently addressed the Embassy agenda and
           was responsive to Washingtons needs, but it lacked the analytical depth
           useful at the policy level. The Embassy was taking steps to use the Mis-
           sion Performance Plan more effectively as a strategic management tool
           by developing integrated reporting, representation, and travel plans
           linked to U.S. objectives. That linkage, coupled with more structured
           strategic planning at the executive and section level, will enhance the
           Embassys policy dialogue with Washington.
               Streamlining of consular operations continued as demand for ser-
           vices steadily increased. Implementation of a recommended best prac-
           tices package and staff rightsizing will further increase efficiency. With
           the opening of a new chancery years away, cramped work conditions may
           need an interim solution.
               Inconsistent management of administrative functions and weak inter-
           nal controls in some administrative units left post resources vulnerable

28   OIG Semiannual Report to the Congress, October 1, 2000, to March 31, 2001
                              to abuse. Interagency communication on administration activities needed
                              strengthening, and some general services and information management
                              services needed improvement. The International Cooperative Adminis-
                              trative Support Services council did not rate service providers and had
                              not functioned as a key vehicle for management of post resources. The
                              post should manage existing resources better before additional ones are
                              requested.



African                       Embassy Nairobi, Kenya (01-FP-R-026)
Inspections
                              The U.S. response to the August 7, 1998, bombing has been extraordi-
                              nary. Great credit is due to Embassy Nairobis administrative staff, the
                              Office of Foreign Buildings Operations, and hundreds of Department
                              officials who contributed uncounted hours to rebuilding operations,
                              finding and renovating a building, and beginning the construction of the
                              new office building.
                                  The United States and Kenya currently enjoy their strongest relation-
                              ship in decades. After years of contentious public American diplomacy
                              in Kenya, the Ambassadors quieter approach has paid dividends, and the
                              reporting record shows that he has pressed tirelessly for political and
                              economic reform behind closed doors.
                                  The urgency of the AIDS effort cannot be overstated; there had
                              been a major bottleneck in Kenya that threatened to slow the expansion
                              of the Centers for Disease Control and Prevention. The Centers had
                              funding and were sending American employees to Kenya, but there was
                              no suitable space to accommodate the expansion. The implementation
                                                                of recently approved legislation
                                                                should allow the Department of
                                                                Health and Human Services to fi-
                                                                nance the desperately needed renova-
                                                                tion of current research sites.
                                                                        As U.S. operations normalized,
                                                                    U.S. attention turned to Americas
                                                                    future in Kenya and whether the
                                                                    American presence should be re-
                                                                    duced. This proved to be impractical,
                                                                    as Washington policymakers surveyed
                                                                    the region and found no alternatives
                                                                    to Kenyas still unique infrastructure.
 Memorial Park, at the site of former American Embassy, honoring        The Ambassador has used his
 the 46 American and Kenyan employees who lost their lives in the   National Security Decision Directive-
                    service of the United States.                   38 authority to try to control the size


OIG Semiannual Report to the Congress, October 1, 2000, to March 31, 2001                              29
           of Embassy Nairobi, but there were legitimate requests to expand the
           operations of the Federal Bureau of Investigation, the Immigration and
           Naturalization Service (INS), the Centers for Disease Control and Pre-
           vention, and the Broadcasting Board of Governors. This inspection
           confirmed the need for improved Department staffing to keep up with
           demands for administrative, consular, and reporting services.
               Major management shortcomings existed in nonimmigrant visa op-
           erations, creating a situation that required concerted action to halt the
           erosion of goodwill toward the United States. In September 1999,
           Embassy Nairobi identified 15 reportable weaknesses in management
           controls. By September 2000, only two weaknesses remained unresolved.
           This accomplishment is a credit to the dedication of Embassy Nairobis
           management team.

           Embassy Dar Es Salaam, Tanzania
           (01-FP-R-025)
           The Ambassador earned high praise for helping to heal the American
           Mission after the bombing of the U.S. chancery in 1998. Ultimately, noth-
           ing the United States or any other donor does in Tanzania will matter
           unless the scourge of HIV/AIDS is brought under control. Although
           there are roles for virtually every arm of the Mission to fight HIV/AIDS,
           the Embassy had no coordinating mechanism. The U.S. plan to assist
           Tanzania to cope with the impact of HIV/AIDS could dwarf all else the
           United States has undertaken developmentally.
               The Embassy did not properly emphasize management controls fol-
           lowing the bombing. Many requirements that may have been bypassed
           during the early days of the crisis were not reinstated after the chaos
           abated. The Embassys oversight of nonexpendable property needed im-
           provement.
               The lack of administrative oversight was seen in the results of OIG
           questionnaires, which indicated dissatisfaction with the administrative
           unit. Those perceptions were being overcome quickly by much needed
           corrective action by new officers.

           Embassy Conakry, Guinea (ISP/I-01-01)
           Although struggling with difficult working and living conditions, Em-
           bassy Conakry was meeting the U.S. Governments goals of promoting
           regional stability, providing humanitarian assistance, supporting democ-
           racy building, and protecting U.S. citizens. The periodic evacuations of
           staff from Embassy Freetown, Sierra Leone, and the transfer of its op-
           erations to neighboring Guinea, have been a challenge for Embassy
           Conakry and have strained the Embassys already thin resources.


30   OIG Semiannual Report to the Congress, October 1, 2000, to March 31, 2001
                             The Embassy had significant security upgrades under way for each
                         of its separate locations. These upgrades will provide better security as
                         well as greatly enhance Mission effectiveness, efficiency, and cohesive-
                         ness.
                              Embassy Conakry has worked diligently to improve management
                         controls in its administrative operations. However, diplomatic readiness
                         suffered from inadequate telecommunications systems. OIG recom-
                         mended a comprehensive Mission telecommunications strategy to iden-
                         tify and implement upgrades needed.
                             Diplomatic readiness also suffered from incessant staffing gaps in key
                         support positions. Untenured and junior officers were stretched into
                         many of the Embassys hard-to-fill positions, including positions where
                         they were expected to supervise other untenured and junior officers. The
                         Department needs to examine whether the grade levels and the actual
                         mix of persons staffing jobs throughout the Mission provide a sufficient
                         level of experience to function effectively in such a difficult environment.
                             The discovery, in April 1999, of extensive visa fraud and Foreign Ser-
                         vice national malfeasance was a wakeup call to the post and should be to
                         the Department regarding the inherent vulnerability of consular opera-
                         tions placed under the part-time management of first-tour officers. Post
                         managements response was swift in restoring close operational control
                         and accountability. OIG recommended that the Embassy formalize these
                         improvements in consular management to ensure permanency.
                             Despite the Embassys vigorous efforts to stop the abuse of the dip-
                         lomatic and official process by certain Guinean Government officials for
                         the purpose of alien smuggling, this practice continued unabated. The
                         Department needs to take strong measures to assist the Embassy in deal-
                         ing with this problem.
                             Public affairs operations were thoroughly meshed with and support-
                         ive of Mission goals. However, public affairs were adversely affected by
                         the Missions inadequate telecommunications systems. The Mission could
                         expand its public affairs coverage of the assistance programs managed by
                         the U.S. Agency for International Development and the Peace Corps.

                         Embassy Dakar, Senegal (ISP/I-01-03)
                         Embassy Dakar has done a good job representing the U.S. interests of
                         promoting democracy, humanitarian assistance, economic prosperity, and
                         regional stability. However, the Bureau of African Affairs could demon-
                         strate more visibly its contention that Senegal is the United States most
                         important Francophone African ally by sending a high level delegation
                         to meet with new administration officials.



OIG Semiannual Report to the Congress, October 1, 2000, to March 31, 2001                        31
               The Department should accredit the Ambassador in Senegal to
           Guinea-Bissau, where the U.S. Government has had no presence since
           evacuating the post over 2 years ago. Accreditation would meet the in-
           tent of National Security Directive 75, which calls for an appropriate
           presence in each sub-Saharan African country. It would also help pro-
           mote regional stability, particularly because Senegal was involved in the
           conflict within Guinea-Bissau in the past.
               Public affairs programs were getting more focus with the arrival of a
           new public affairs officer. OIG recommended that the Mission give
           greater public affairs attention to the humanitarian assistance efforts of
           the U.S. Agency for International Development and the Department of
           Defense. This will help demonstrate more publicly the importance the
           U.S. attaches to Senegal and help improve the Senegalese view of the
           United States.
               Embassy Dakar offers regional support to consular operations for
           posts in five neighboring countries and serves as a centralized immigrant
           visa center for these posts and Embassy Freetown. Embassy closures and
           temporary visa unit shutdowns in those countries are bringing many
           more homeless nonimmigrant visa cases to Embassy Dakar. It may be
           time to consider centralizing nonimmigrant visa processing at Dakar.
               Embassy Dakar had made good progress implementing security mea-
           sures for the chancery. The Mission and the Department needed to act
           quickly to relocate USAID to a more secure site and the public affairs
           operations to more secure space in an administrative building near the
           chancery. They also needed to move quickly to acquire land for a new
           office building that would include all Mission elements.
               The Embassys diplomatic readiness was hindered, in part, by chronic
           staffing gaps, particularly in key administrative section positions such as
           general services and information management. The most critical opera-
           tional need was to develop a more transparent, equitable, and rational
           housing program that includes preparation for new arrivals.

           Embassy Bamako, Mali (ISP/I-01-04)
           Embassy Bamako has done a good job meeting the U.S. Governments
           goals of providing humanitarian assistance, supporting democracy build-
           ing, promoting regional stability and peacekeeping, and protecting U.S.
           citizens. An increased workload resulting from Malis membership on the
           UN Security Council will challenge the Embassy. An even greater chal-
           lenge is the increased workload caused by instability in Africa. OIG rec-
           ommended that the Department provide an officer or analyst for the du-
           ration of Malis membership on the Security Council.
              In spite of security measures taken and planned, Mission elements
           remained vulnerable. OIG recommended that the Department focus on

32   OIG Semiannual Report to the Congress, October 1, 2000, to March 31, 2001
                         improving Missionwide security by consolidating all Mission activities on
                         a compound with proper setback. This would provide a proper level of
                         security, reduce operating costs, and improve efficiency, effectiveness,
                         and cohesiveness by consolidating staff and reducing duplicative opera-
                         tions.
                             Embassy Bamako was in a sad state of diplomatic readiness. Inad-
                         equate facilities, poor equipment, and unreliable telecommunications
                         hampered Mission effectiveness, efficiency, and security. Incessant staff-
                         ing gaps in key support positions plagued the mission. The Department
                         needs to support post requests to increase funding and staffing to meet
                         the needs of a Mission that has grown by 30 percent since 1998.
                             The U.S. Mission in Bamako enjoyed good collaboration among the
                         various agencies. The deputy chief of mission served the Mission well as
                         charge for 6 months before the January 2000 arrival of the Ambassador,
                         who brought new enthusiasm and energy to the Mission. Having devel-
                         oped productive and thorough access to Mali officials, the Ambassador
                         needed to expand his attention to internal morale issues with other
                         agency staff.
                             Embassy Bamakos visa operation fell prey to sophisticated alien
                         smuggling in late 1999 because of the inexperience of the American
                         staff. The section rebounded well, but still needed to be more proactive
                         in combating visa fraud and alien smuggling. These efforts should be fo-
                         cused through strategies formulated in a revised Mission Performance
                         Plan.
                              The public affairs section was thoroughly meshed with and support-
                         ive of Mission goals. The identification and selection of another more
                         secure building for the American Cultural Center took much of the pub-
                         lic affairs staff s time. OIG recommended that the section contribute to
                         the post reporting plan and that the Mission expand its public affairs cov-
                         erage of assistance programs.



Latin American           Embassy Bogota, Colombia (ISP/I-01-06)
Inspections
                         Embassy Bogota works closely and well with the Government of Colom-
                         bia to advance U.S. principal policy objectives in Colombia  supporting
                         counternarcotics efforts and promoting democracy and free market re-
                         form. Congressional approval of $1.3 billion to support Plan Colombia, a
                         broad Colombian Government initiative to come to grips with
                         Colombias most pressing political, security, and economic challenges,
                         will significantly increase demands on Embassy Bogota.
                            The Ambassador and the deputy chief of mission exercised strong
                         control over a large, diverse, and extraordinarily busy Mission. Inter-

OIG Semiannual Report to the Congress, October 1, 2000, to March 31, 2001                        33
           agency coordination was rigorous and effective. Significant numbers of
           visitors and officials on temporary duty in Colombia added to the man-
           agement challenge, which the Embassy met successfully.
               The Embassys security program was well managed and had the full
           support of the Ambassador and Embassy management. However, the
           Embassy faced major security and space concerns, which must be re-
           solved before any further expansion of the Mission. The presence of
           dependents at this danger pay post is unauthorized. If the Secretary of
           State does not approve an exception, either dependents or danger pay
           must be withdrawn, making the post much harder to staff.
               The shortage of narcotics affairs section staff threatened the achieve-
           ment of the principal U.S. objective in Colombia: stemming the flow of
           cocaine and heroin to the United States. Dramatic increases in FY 1999
           and FY 2000 narcotics affairs section programs required an increase in
           staff to properly administer them. However, due to the lack of space, the
           section could not hire any new staff.
               Demand for consular services greatly exceeded the Missions re-
           sources. Despite effective and innovative management, a growing backlog
           of 200,000 visa applicants was an increasing drain on several Mission
           elements and an impediment to bilateral trade. Additional staffing had
           been authorized, but positions remained unfilled. Additional workspace
           and improved information systems were needed. The consular section
           did a good job of keeping American citizens informed of dangerous
           conditions and assisting Americans who became victims of Colombias
           endemic crime and violence.
               There was no reliable interface between the consular section and the
           Drug Enforcement Administration for sharing needed information from
           automated databases to process visa applications. OIG has identified this
           as a global problem, but it is most acute in Embassy Bogota where the
           intensity of the U.S. counternarcotics effort is unparalleled, and the vol-
           ume of visa applications and fraud require both efficient and accurate
           background screening.
                A historic recession, ongoing political insurgency, and escalating po-
           litical and drug-related violence create a difficult climate for commercial
           promotion. Within this context, the Mission effectively promoted U.S.
           exports. Under the Ambassadors leadership, the Foreign Commercial
           Service, the Foreign Agricultural Service, the Animal and Plant Health
           Inspection Service, and the political/economic section cooperated effec-
           tively to advance Colombian reforms that opened markets to U.S. busi-
           nesses.
               The Embassys public affairs strategy was outlined clearly in the Mis-
           sion Performance Plan, and programming was linked directly to major
           Mission Performance Plan themes. The public affairs section was well


34   OIG Semiannual Report to the Congress, October 1, 2000, to March 31, 2001
                         integrated into the Mission and adequately staffed. However, cramped
                         workspace hampered operations, especially in the information resource
                         center.
                              Embassy Bogotas Council for International Cooperative Adminis-
                         trative Support Services was not actively managing interagency support
                         costs and services. OIG recommended that post management intervene
                         to reactivate and direct the council.

                         Embassy Panama City, Panama (ISP-I-01-02)
                         Embassy Panama City was managing, with mixed results, an array of pro-
                         grams aimed at helping Panama to meet the challenges of providing for
                         its own defense, including security for the canal and defense against
                         threats posed by guerrilla and paramilitary groups from Colombia cross-
                         ing into Panama. Other threats to Panama that impinge on U.S. security
                         include narcotics trafficking, money laundering, and alien smuggling.
                              A contentious relationship between the Embassy and the Bureau of
                         Western Hemisphere Affairs complicated and delayed policy implementa-
                         tion. The Bureau and Embassy management must move forward in a mu-
                         tually supportive manner to improve Mission effectiveness. Similarly, in
                         some cases, confrontational issues with some Washington offices of U.S.
                         Government agencies have not always been resolved with constructive
                         dialogue. The Embassy should focus on outreach to key senior level offi-
                         cials with other agencies, such as the Department of the Treasury, the
                         Department of Commerce, and the U.S. Trade Representative.
                              An energetic community of law enforcement agencies operated un-
                         der the careful coordination of the Ambassador and deputy chief of
                         mission. Interagency cooperation was excellent and included broad par-
                         ticipation from all Mission elements. Projected staff increases in law en-
                         forcement agencies may be justified in some cases, but require careful
                         review under the National Security Decision Directive 38 process.
                              Embassy Panama Citys severely dilapidated chancery, built in 1941,
                         portrays a dismal image of the U.S. presence in Panama. The Department
                         has acknowledged the posts security and safety shortcomings but has
                         provided no near-term solution beyond limited cosmetic upgrades. Two
                         site survey teams had identified a potential site for new chancery con-
                         struction, but no funding had been committed. Working and security
                         conditions dictate the clear need for a new chancery as soon as practical.
                             The political/economic section was involved in defining a new post-
                         transfer bilateral political, economic, and security relationship. Washing-
                         ton commended post reporting and performance during the historic con-
                         version period. However, the section was overstaffed for its current
                         workload. OIG recommended abolishing two American positions and
                         reassigning one American position within the Embassy.

OIG Semiannual Report to the Congress, October 1, 2000, to March 31, 2001                        35
               Public affairs was well used by the Embassy as a whole. However, the
           public affairs section needed to realign to meet the changing needs of the
           Mission. OIG recommended abolishing one American position, repro-
           gramming one American position, and reassigning one foreign national
           position within the section.
               Outreach programs by the information resources management sec-
           tion and the public affairs sections information resource center had en-
           hanced Missionwide use of information systems. This approach should
           be regarded as a management best practice for application at other
           missions.

           Embassy Caracas, Venezuela (01-FP-R-022)
           Embassy Caracas has done an impressive job of helping to guide policy
           during a major transition in Venezuelan politics. Changes under way in-
           crease the potential for miscalculation in managing the bilateral relation-
           ship. More needed to be done to ensure that the Embassys on-the-scene
           perspectives were taken into account in policy deliberations in Washing-
           ton.
               Cooperation was good among Mission components, which worked
           well to achieve common purposes. Frequently, however, agency and unit
           priorities, rather than Missionwide objectives, set the agenda for these
           activities. As a result, the Mission was less effective in advancing impor-
           tant bilateral and regional objectives.
               Activities conducted by Embassy Caracas were not always well coor-
           dinated with similar endeavors by other U.S. missions in the region. The
           effort to control narcotics trafficking was the most striking example. Failure
           to fully coordinate U.S. activities in Venezuela with similar programs being
           conducted by U.S. missions in neighboring countries, particularly those in
           the Andean region, reduced the effectiveness of the overall effort.




                                       U.S. chancery in Caracas


36   OIG Semiannual Report to the Congress, October 1, 2000, to March 31, 2001
                             The integration of the U.S. Information Service personnel into a
                         public affairs section within the Mission was smooth for the most part,
                         but attitude adjustments will require more time. The merger created its
                         own dynamic as well as a new division of labor within the section. The
                         role of public diplomacy within the Mission was evolving as well. Al-
                         though some of the circumstances were undoubtedly post specific, they
                         also suggested a larger trend that merits greater attention by Department
                         planners.
                             Administrative operations, particularly general services and human
                         resources, needed considerable strengthening. Management controls were
                         weakin some instances nonexistentand management oversight has
                         been largely ineffective.
                             Embassy Caracas faces serious space problems in the new chancery,
                         which was completed in 1995. Staff already exceeded planned capacity
                         of the building. Office layout was not conducive to efficient operations.
                         Both the Embassy and the Department urgently need to address this
                         problem.
                             Embassy Caracas needs to maintain access and leverage to influence
                         and evaluate developments in Venezuela. Venezuelas undisguised aspira-
                         tions for regional leadership, as well as the more assertive role it is playing
                         in the Organization of Petroleum Exporting Countries, carry significant
                         implications for the United States. Embassy Caracas needs to increase its
                         coverage of the broader petroleum sector, including future-capacity
                         expansion plans.
                              Mission personnel were not developing the contacts they needed to
                         advance U.S. interests in Venezuela and the region. Lack of public trans-
                         portation, traffic gridlock, and the Embassys remote location made it
                         difficult for Mission personnel to meet with their Venezuelan counter-
                         parts. Expanded outreach was difficult because of a lack of representa-
                         tional funds, high crime rates, and housing that was not well suited to
                         representational entertaining.
                             Foreign national employees were widely perceived by the American
                         staff as not performing at acceptable levels. Foreign national employees
                         believed their American coworkers did not appreciate the contributions
                         they made to the work of the Mission. These negative perceptions con-
                         tributed to an atmosphere of mutual recrimination that detracted from
                         the teamwork necessary for effective Missionwide efforts in support of
                         U.S. interests in Venezuela. The well-managed and adequately staffed
                         consular section struggled to meet growing demand for consular services
                         in office space it had outgrown. Enhancements to the fraud manage-
                         ment program were under way; greater efforts and some reorganization
                         were needed.



OIG Semiannual Report to the Congress, October 1, 2000, to March 31, 2001                           37
                           U.S. Interests Section Havana, Cuba
                           (01-FP-R-020)
                           Mission activities are closely monitored and sharply restricted by the
                           Cuban Government. In these circumstances, the U.S. Interests Section
                           should concentrate its attention and resources where they are likely to be
                           most effectivesupporting people-to-people exchanges and full imple-
                           mentation of bilateral migration agreements, including monitoring pos-
                           sible retaliation against returnees.
                               The U.S. Interests Section was severely hampered by the absence
                           of a deputy principal officer. As a result, internal coordination, followup,
                           and oversight of Mission activities suffered. A new deputy principal
                           officer should be assigned promptly.
                               Polarization has long characterized discussion in the United States
                           of Castros Cuba. Bipartisan reluctance to take actions that might be
                           interpreted as promoting normalization of relations with Cuba has also
                           worked against expanding activities that might contribute to more
                                                           openness in Cuban society. People-to-
                                                           people exchanges and other outreach
                                                           activities should be expanded.
                                                                Refugee and migration issues merited
                                                           greater attention by the U.S. Interests
                                                           Section and the U.S. Government gener-
                                                           ally. Existing facilities for processing refu-
                                                           gee cases were shabby. Long overdue
                                                           renovations to the migration center re-
                                                           mained stalled over funding problems
                                                           and design issues. Successive staffing gaps
                                                           deterred adequate monitoring of re-
                                                           turned migrants. OIG recommended
                                                           that these issues be promptly resolved
     U.S. Interests Section Office Building, Havana        and the renovations completed without
                                                           further delay.
                               The consular section had more than adequate space and, when fully
                           staffed, sufficient personnel to accomplish its current mission. However,
                           any significant shift in the bilateral relationship could quickly submerge
                           the section in more work than it can handle. Inaccurate Cuban medical
                           clearances enable immigrants who should be excluded on medical
                           grounds to enter the United States.
                               Cuba is an extremely difficult working environment characterized
                           by pervasive state control and limited access to government officials.
                           The U.S. Interests Section was doing what it could in these difficult cir-
                           cumstances. The addition of permanent staff devoted to reporting is


38                OIG Semiannual Report to the Congress, October 1, 2000, to March 31, 2001
                         unlikely to appreciably alter this situation, and gaps in information will
                         have to be filled by other means.
                              The U.S. Interests Section had an active human rights program that
                         reached out to the few Cubans willing to challenge the authorities. Al-
                         though public U.S. support for these dissidents remains important, the
                         activities of friendly nations and diplomatic missions, nongovernmental
                         organizations, and the international human rights community are more
                         likely to be effective.
                             A 51-person limitation on U.S. permanent staff and government
                         control over the hiring and firing of Cubans working at the U.S. Inter-
                         ests Section highlight the importance of effective human resources man-
                         agement. The Department, working with the U.S. Interests Section,
                         should develop a plan to ensure continuity in American staffing at the
                         U.S. Interests Section. Issues associated with the employment of Cuban
                         nationals also merit comprehensive review, including staffing levels, re-
                         muneration issues, and training needs.
                             Faced with problems encountered almost nowhere else in the world,
                         the administrative section was performing commendably. Operations
                         were hampered at every turn by a hostile government. Infrastructure is
                         poor, and housing is inadequate and difficult to obtain. Staffing is prob-
                         lematic because of the Cuban Governments control of the national la-
                         bor pool.



Consolidation            Status of State-USIA Consolidation at Overseas
                         Posts (ISP/I-01-05)
                         During 19 post management inspections conducted between October
                         1999 and July 2000, OIG teams evaluated the process and the impact of
                         the State-USIA consolidation with a special emphasis on the public diplo-
                         macy function. Principal findings were:
                              On balance, consolidation at posts was accomplished smoothly
                         with little or no interruption in programs and public diplomacy functions.
                              OIG did not observe, nor did it expect, any short-term savings as
                         a result of the consolidation of management functions.
                              The integration of former U.S. Information Service executive of-
                         ficers into the Departments administrative sections created some over-
                         lap in responsibilities, and in two posts, former executive officers had
                         few duties commensurate with their rank and experience.
                               Former U.S. Information Service FSNs at several posts were un-
                         sure of the impact of consolidation on their grade, salary, responsibili-
                         ties, and long-term employment.


OIG Semiannual Report to the Congress, October 1, 2000, to March 31, 2001                         39
                       OIG will continue to study these and other issues during future post
                    management inspections to determine whether there are systemic prob-
                    lems that warrant management intervention.



Export Licensing    U.S. Munitions List and the Commodity
                    Jurisdiction Process (01-FP-M-027)
                    The National Defense Authorization Act for FY 2000, Public Law 106-
                    65, Title XIV, Section 1402, Annual Report on Transfers of Militarily
                    Sensitive Technology to Countries and Entities of Concern, requires the
                    Inspectors General of the Departments of Commerce, Defense, Energy,
                    and State to audit U.S. Government policies and procedures for export
                    of technologies and technical information to countries and entities of
                    concern. During FY 2001, the Department of State OIG has assessed
                    the export licensing process to determine whether the policies and pro-
                    cedures for developing, maintaining, and revising the U.S. Munitions List
                    were adequately protecting the export of militarily sensitive technologies.
                    As part of this objective, OIG also assessed the policies and procedures
                    in place at the Office of Defense Trade Controls for processing com-
                    modity jurisdiction cases.
                        OIG found that the policies and procedures for developing, main-
                    taining, and revising the U.S. Munitions List were adequately protecting
                    the export of militarily sensitive technologies. However, the policies and
                    procedures for the commodity jurisdiction process needed improvement.
                    The process took too long and was not always transparent. OIG recom-
                    mended that the Office of Defense Trade Controls develop procedures
                    to notify, on a regular basis, the Departments of Commerce and Defense
                    of deadlines for specific commodity jurisdiction cases, and implement a
                    plan to improve its coordination with other agencies and internal com-
                    modity jurisdiction procedures.




40            OIG Semiannual Report to the Congress, October 1, 2000, to March 31, 2001
Security

                         OIG performs audits and inspections of the Departments programs for
                         protecting the people, information, and facilities under its authority.
                            During this reporting period, OIG conducted security inspections at
                         Embassies Damascus, Syria; Skopje, Macedonia; Beirut, Lebanon;
                         Helsinki, Finland; Nicosia, Cyprus; Antananarivo, Madagascar; Port
                         Louis, Mauritius; Moscow, Russia; Ljubljana, Slovenia; and Rangoon,
                         Burma. OIG also conducted an audit of Emergency Action Manage-
                         ment. These reports are summarized in the classified annex to this re-
                         port.



                         Review of the Surveillance Detection Program
                         (01-FMA-R-006)
                         OIG reviewed the Bureau of Diplomatic Securitys Surveillance Detec-
                         tion Program to determine if its objectives were being accomplished.
                         OIG also reviewed the status of posts program implementation, train-
                         ing, and adequacy of management controls. Finally, OIG wanted to iden-
                         tify systemic and post-specific opportunities for program enhancement.
                         OIG found that the worldwide establishment of an entirely new security
                         initiative against terrorism at U.S. missions was a significant achievement.
                         However, the Surveillance Detection Program missed an important op-
                         portunity by not using staff as an additional layer of protection for U.S.
                         missions against mass casualty attacks. OIG found that post programs
                         lacked adequate procedures to deal with emergencies. In many instances,
                         OIG found office space located outside the U.S. mission is not essential
                         for Surveillance Detection operations. In addition, software provided by
                         the Bureau to track surveillance incidents failed to discern patterns of
                         hostile surveillance. OIG also identified best practices and alternative
                         methods to the existing program model that can more economically or
                         more efficiently achieve the goal of detecting hostile surveillance.
                             Major recommendations include: emergency procedures to maximize
                         the protective value of Surveillance Detection guards; Program offices
                         outside of U.S. missions should be reviewed and nonessential leases dis-
                         continued; Surveillance Detection database software should be reviewed
                         and modified for program effectiveness with the assistance of the Bu-
                         reau of Information Resource Management; and more efficient and
                         cost-effective alternatives to detect surveillance should be identified and
                         used when possible.


OIG Semiannual Report to the Congress, October 1, 2000, to March 31, 2001                         41
Human Resources

                         During this period, OIG provided oversight of the Department and
                         BBG in attracting, placing, and retaining a highly skilled, motivated,
                         diverse, flexible, and accountable workforce.



                         The Civil Service to Foreign Service Hard-
                         to-Fill Program (01-HR-L-029)
                         At the request of the Deputy Assistant Secretary for Human Resources,
                         OIG reviewed the Civil Service to Foreign Service Hard-to-Fill Program.
                         The objective of our review was to determine whether the Hard-to-Fill
                         Program is helping to alleviate Foreign Service staffing shortages and
                         enhancing work experiences for Civil Service employees.
                              OIG found that, overall, the Hard-to-Fill Program has been useful in
                         reducing Foreign Service staffing shortages and has broadened work ex-
                         periences for Civil Service employees. OIG found widespread support
                         for the program, but there were also workforce planning concerns
                         among personnel managers, the bureaus, employees, and the American
                         Foreign Service Association. Concerns focused on ensuring a smooth,
                         fair, and appropriate transition for returning Civil Service employees with
                         reemployment rights and on the need to consider the costs of Hard-to-
                         Fill programs, especially in sending bureaus.


                                     Civil Service Currently in Hard-
                                        to-Fill Positions Overseas

                                                WHA
                                                 13%             AF
                                          NEA/SA                27%
                                           14%

                                                 EAP           EUR
                                                 22%           24%




OIG Semiannual Report to the Congress, October 1, 2000, to March 31, 2001                         43
                The Hard-to-Fill Program is beneficial and worth continuing because
           it provides experienced employees for necessary positions that otherwise
           would go unfilled. However, it is only one of several programs designed
           to deal with fundamental problems such as management of resources
           and chronic personnel shortages. For example, despite the widespread
           approbation that the Hard-to-Fill Program has elicited, at any given time
           there are about 200 unfilled Foreign Service positions in Washington,
           D.C., and around the world.



                                        Tours of Duty
                In May 1999, OIG issued its report on the Departments Overseas
                Tours of Duty. The Department currently has a policy of 2- and 3-
                year tours for virtually all of its overseas assignments. However,
                other U.S. Government agencies have 4-year tours in addition to
                2- and 3-year tours. OIG recommended that the Department re-
                examine overseas tours to increase the number of 3-year tours
                and establish 4-year tours. We noted that this change would have
                positive financial and productivity implications.
                     In its initial response to our report, in February 2000, the
                Director General of the Foreign Service noted that the Depart-
                ment had already undertaken an intensive review of tours of duty
                in preparing for the integration of USIA. He concluded that there
                was little if anything to be gained, either financially or in produc-
                tivity, from longer tours. Moreover, his response noted that sev-
                eral personnel problems (e.g., filling hardship posts) would be
                exacerbated with longer tours of duty.
                     Subsequent to this response, OIG staff responsible for work
                in this area met with officials in the Director Generals office to
                further explain our findings, conclusions, and recommendations.
                In January 2001, a new Director General announced that he
                planned to change the standard tour of duty, at nondifferential
                posts, from 3 years to 4 years. He cited OIGs recommendations
                as well as other studies and noted several benefits from longer
                tours, including deepening staff understanding of the countries
                they serve in and cost savings.
                    The Director Generals office is working closely with the
                American Foreign Service Association and the regional bureaus
                to implement the policy. The American Foreign Service Associa-
                tion has raised concerns about applying the policy to many cur-
                rent 3-year posts. OIG will continue to monitor implementation of
                the new policy.




44   OIG Semiannual Report to the Congress, October 1, 2000, to March 31, 2001
Information Technology

                         During this period, OIG performed the following review of the Depart-
                         ments ability to have effective operations providing development,
                         deployment, management, and maintenance of efficient and reliable
                         information technology infrastructures.



                         Departmentwide Web Site Management Needs
                         to be Strengthened (01-IT-M-017)
                         The World Wide Web, also known as the Internet, has emerged as a
                         powerful tool for communicating large amounts of information on Fed-
                         eral activities and services. At the same time, however, the Internet has
                         made it possible for web sites to track and collect personally identifiable
                         datasuch as an individuals name, e-mail address, Social Security num-
                         ber, or credit card numbermaking online privacy one of the key and
                         most contentious issues in this information age.
                              In response to requirements of Section 646 of the Treasury and
                         General Government Appropriations Act, 2001, OIG conducted a re-
                         view of Internet privacy management at the Department. We focused
                         our review on the Departments practices regarding the collection of per-
                         sonally identifiable information through the use of cookies or other
                         means on its public web sites. A cookie is a small text file placed on a site
                         visitors computer hard drive by a web server, allowing a server to track
                         online purchases, maintain and serve customized web pages, or build pro-
                         files on individual site visitors.
                              As a result of our review, we found that the Department has ongoing
                         efforts to institute policies to ensure that its web sites are managed in
                         accordance with Federal online privacy guidelines prescribed by the Of-
                         fice of Management and Budget. Specifically, the Departments policies
                         restrict the use of persistent cookies on its public web sites without
                         agency head approval. Because persistent cookies remain stored on site
                         visitors computers until a specified expiration date and can be used to
                         track personal information over time or across web sites, they raise site
                         visitors apprehension about what information is collected and how it
                         could be used. The Departments policies also require that web sites dis-
                         play privacy and security notices informing users that cookies or other
                         means to collect data from the public are employed on the sites.




OIG Semiannual Report to the Congress, October 1, 2000, to March 31, 2001                         45
                 Despite the Departments Internet privacy restrictions, we found
           that 9 of the 206 web sites that we identified in the Department were
           using persistent cookies without proper authorization. At two of the
           nine sites, the web managers knew that persistent cookies were being
           used, but did not realize that they needed agency head permission. The
           cookies were used for such activities as analyzing web trends, counting
           visitors, and facilitating user navigation through the sites. For the remain-
           ing seven situations, web managers did not know that cookies were being
           used. These cookies had been inserted through a commercial web devel-
           opment application as a convenient way of maintaining user preferences
           (i.e., graphics, screen color) as a user navigates from one web page to
           another during a site visit. Web managers agreed to take steps to remove
           or seek the Secretarys approval for the nine persistent cookies that were
           discovered during our review.
               Further, we found that 116 of 206well over half of the
           Departments sites that we reviewedhad no privacy statements and
           therefore no means of advising users of any information collected on
           the sites. Of the 116 sites with privacy statements, 34 had outdated state-
           ments, archived from a prior web hosting arrangement. Webmasters
           whom we informed of the outdated privacy notices all agreed to update
           their sites. Additionally, the two sites that knowingly used persistent
           cookies did not post adequate privacy statements to advise site visitors
           of this practice. We found no evidence that any of the persistent cook-
           ies were used to collect personal data on site visitors.
                These online privacy assurance problems resulted in part from the
           Departments highly decentralized approach to web site management, in
           which numerous organizations share responsibility for guiding or con-
           trolling various aspects of Internet management. Domestic bureaus and
           posts also have considerable independence regarding how to manage
           and host their web sites. The Department recognizes that it needs to
           strengthen web site management across the organization and, as a first
           step, has established a permanent, senior-level Internet Steering Com-
           mittee. We recommend that the Department go even further, and estab-
           lish a small Internet Program Office within the Office of the Under Sec-
           retary for Public Diplomacy and Public Affairs to support the Internet
           Steering Committee in overseeing and coordinating web sites on an
           agencywide basis.




46   OIG Semiannual Report to the Congress, October 1, 2000, to March 31, 2001
Investigations

                         OIG conducts accountability and integrity oversight work as part of its
                         investigative operations. OIG also provides training and performs out-
                         reach activities designed to promote ethics and integrity in the
                         workforce.



Initiated This           Conflict of Interest
Reporting Period
                         OIG conducted an investigation into allegations that a U.S. ambassador
                         violated conflict of interest laws by soliciting the government of the
                         country of assignment to raise funds for a private nonprofit entity for
                         which the Ambassador served as Director. Prior to assuming the po-
                         sition, the Ambassador had signed an ethics undertaking agreement
                         not to participate in fundraising for the nonprofit entity. As a result
                         of the investigation, the Ambassador signed a settlement agreement
                         with the Department of Justice, Public Integrity Section, to pay $5,000.
                         (99-027)

                         Employee Misconduct
                         OIG conducted an investigation of a Diplomatic Security officer based
                         on allegations that the officer misused government cars, telephones, and
                         computers as part of the officers outside employment. As a result of
                         the investigation, on August 25, 2000, the Departments Bureau of
                         Financial Management and Policy notified the officer to repay the
                         Department $10,335 for misuse of government property. On January 5,
                         2001, the Departments Bureau of Human Resources notified the officer
                         of a proposal for a 30-day suspension for misuse of U.S. Government
                         automobiles. (98-027)

                         Theft
                         OIG conducted an investigation into allegations that a Foreign Service
                         officer wrote bad checks to the U.S. embassy where the officer was as-
                         signed. The total monetary loss to the government was determined to
                         be $14,713. The officer pled guilty to one misdemeanor count of Theft
                         of Government Property in U.S. District Court for the Eastern District
                         of Virginia. On January 9, 2001, the officer was sentenced to 3 years of



OIG Semiannual Report to the Congress, October 1, 2000, to March 31, 2001                      47
                            supervisory probation, 4 months of home detention, and full restitution
                            to the U.S. Government. (99-037)



                            OIG conducted a joint investigation with the Department of Education,
                            Office of Inspector General, and the U.S. Postal Inspection Service into
                            allegations that a Foreign Service officer fraudulently submitted docu-
                            mentation, including death certificates, to creditors in an effort to alle-
                            viate $31,709 in personal debts. On October 20, 2000, the officer pled
                            guilty to one felony count of Conversion of U.S. Government Property
                            over $1,000 in U.S. District Court for the Eastern District of Virginia.
                            The officer was sentenced to 3 years of unsupervised probation, a $100
                            fine, and full restitution. (98-051)



                        OIG conducted an investigation into allegations that a Department
                        timekeeper falsified time and attendance records to get overtime pay for
                        hours that had not been worked. On January 5, 2001, the timekeeper
                        pled guilty to one misdemeanor count of Theft of Government Prop-
                        erty in District Court for the District of Columbia. As part of his/her
                        plea agreement, the timekeeper agreed to resign from the Department
                        and to make full restitution to the government. The timekeeper officially
                                                     resigned on February 2. On March 23, the
           Types of Cases*                           former timekeeper was sentenced to 4
                                                     months of home detention, 2 years proba-
                                                     tion, 50 hours of community service, and
     Passport & Visa Fraud, 40%                      full restitution of $12,867. (00-083)

     Employee Misconduct, 29%                           Visa Fraud
                                                        In October 2000, OIG opened a joint inves-
     Miscellaneous Theft, 9%
                                                        tigation with INS, based on information that
                                                        a foreign national residing in New Jersey was
     False Statements and Claims, 6%                    manufacturing and selling machine-readable
                                                        visas. Based on evidence developed in an
     Contract & Procurement Fraud, 9%                   undercover operation, the investigators ob-
                                                        tained a search warrant for this individuals
                                                        residence. During the execution of this war-
     All Other, 7%                                      rant, the subjects computer was seized,
                                                        along with account ledgers, counterfeit visas,
0         10       20        30        40        50     social security cards, and other documenta-
                                                        tion and equipment. On November 1, 2000,



48                   OIG Semiannual Report to the Congress, October 1, 2000, to March 31, 2001
          Geographic Distribution of Investigations*




               Western Hemisphere  14 cases, 13%

                                                Europe  7 cases, 6%
         Domestic
         71 cases,
           65%                                Near East                 South Asia
                                             3 cases, 3%                1 case, 1%
                                                                                     East Asia and
                                                                                         Pacific
                                                  Africa                              8 cases, 7%
                                                 5 cases,
                        Latin                       5%
                      America
                      0 cases,
                         0%


                                       Boundary representations are
                                       not necessarily authoritative.

 (*Reflects combined ongoing investigative activities for the Department of State and the BBG.)



                          the subject was charged with felony violations of visa fraud, immigration
                          document fraud, and social security fraud. At the end of this reporting
                          period, the subject was engaged in plea negotiations with the U.S.
                          Attorneys Office. (01-002)



                          OIG opened a joint investigation with INS based on information that a
                          group of Mexican nationals operating in Washington, D.C., was involved
                          in the illegal manufacture and sale of fraudulent identity documents,
                          including visas, permanent residency cards, and social security cards.
                          Search warrants were executed on three locations. Evidence seized at
                          one of the search sites indicated that the subjects had been manufactur-
                          ing fraudulent F-1 (student) visas, permanent residency cards, work au-
                          thorization cards, and other fraudulent documents. Four Mexican na-
                          tionals subsequently pleaded guilty to felony charges of conspiracy to
                          commit visa fraud and fraud in connection with identity documents.
                          Three of them were sentenced in March 2001 to prison terms ranging
                          from 24 to 28 months; they will be deported to Mexico on completion
                          of these sentences. Sentencing was pending at the end of the reporting


OIG Semiannual Report to the Congress, October 1, 2000, to March 31, 2001                       49
           period for the fourth individual, who pleaded guilty to these charges. A
           fifth Mexican national pleaded guilty to reentry after deportation; he was
           sentenced to 7 months incarceration and will be deported on comple-
           tion of the sentence. Criminal charges were dropped against a sixth indi-
           vidual, who was deported to Mexico. (01-003)



           OIG opened a joint investigation with INS, Social Security Administra-
           tion OIG, and the Florida Department of Law Enforcement, based on
           information developed in another OIG investigation, which indicated
           that a Polish national residing in Clearwater, Florida, was involved in the
           sale of counterfeit H1-B visas and other fraudulent identity documents.
           This subject is a legal permanent resident of the United States and had
           applied for U.S. citizenship. Information developed in the other investiga-
           tion established that this subject had been the primary source of coun-
           terfeit H1-B visas for a group involved in a large-scale scheme to profit
           from the employment of unauthorized alien workers in the United
           States. Additional investigation, including analysis of financial records,
           developed further evidence of illegal activities. On March 22, 2001, this
           individual was charged in the Central District of Florida with felony
           violations of visa fraud, naturalization fraud, and social security fraud.
           (00-077)



           OIG opened a joint investigation with INS in January 2000 of an allega-
           tion that student visas had been issued to a substantial number of Chi-
           nese nationals, based on fraudulent certifications that these individuals
           were students at a university in New England. The university advised that
           these individuals were not students, and that the documents were fraudu-
           lent. Further investigation determined that a group of Chinese nationals
           based in New York was operating this scheme.
               This group had obtained fraudulent student visas for approximately
           300 foreign nationals by providing fraudulent certifications pertaining to
           more than 20 universities and colleges. The group was also involved in
           obtaining fraudulent visas by preparing false petitions for employment
           for nonimmigrant workers. In November 2000, two Chinese nationals
           were arrested in New York City on charges of visa fraud in connection
           with this scheme. An arrest warrant was also issued for a third Chinese
           national, who is believed to be out of the United States. Disposition of
           these charges was pending at the end of this reporting period. (00-036)




50   OIG Semiannual Report to the Congress, October 1, 2000, to March 31, 2001
                         OIG opened a joint investigation with INS, Tampa, Florida, based on
                         information that a foreign national, who had been convicted of two
                         felony violations in the United States, had used a fraudulent visa to reen-
                         ter the United States illegally. The investigation determined that this indi-
                         vidual had been convicted in the United States for possession of a nar-
                         cotic drug with the intent to sell it and had fled from the United States
                         to avoid incarceration. He reentered the United States with a fraudulent
                         visa in a different name. He was then convicted of aggravated assault
                         and was deported from the United States in October 2000. After being
                         deported, he again reentered the United States. In March 2001, he was
                         arrested, and was subsequently indicted on charges of visa fraud and re-
                         entry after deportation. (01-042)

                         Passport Fraud
                         OIG opened an investigation based on information received from a po-
                         lice detective in California. The information indicated that a passport that
                         had been seized in the execution of a search warrant contained the pic-
                         ture of a Nigerian national who was under investigation for forgery and
                         fraud; the name on the passport was not the true name of this individual.
                         OIG obtained and reviewed relevant passport application records. In
                         January 2001, a criminal complaint was filed in the Southern District of
                         California, charging the Nigerian national with passport fraud. This indi-
                         vidual was subsequently arrested and indicted for passport fraud on Feb-
                         ruary 13, 2001. At the end of this reporting period, he remained incarcer-
                         ated pending the resolution of this charge. (99-073)



Followup Actions         Visa Fraud
                         OIG conducted a joint investigation with the Federal Bureau of Investi-
                         gation based on information that a school principal in Colorado had
                         been engaged in a scheme to assist Russian nationals in fraudulently ob-
                         taining visas to enter the United States. The investigation developed evi-
                         dence that this individual had used his position as an educator to submit
                         letters to the U.S. Embassy in Moscow in support of applications for
                         tourist visas. In these letters, he falsely claimed that the applicants would
                         participate in cultural and educational activities that he had arranged in
                         the United States.
                             When interviewed by investigators, the subject admitted that he had
                         submitted such false information over a period of approximately 4 years;
                         that he had been aware that most of these applicants did not intend to




OIG Semiannual Report to the Congress, October 1, 2000, to March 31, 2001                          51
           participate in such cultural activities and did not intend to return to Rus-
           sia; and that he had accepted fees from the applicants for obtaining
           these visas. The investigation determined that consular officials at the
           U.S. Embassy had based their approval of these visa applications largely
           on the letters that the subject had submitted.
               In July 2000, this individual was indicted by a Federal grand jury in
           Colorado on felony charges of visa fraud and false statements. In Sep-
           tember 2000, he pleaded guilty in U.S. District Court to both counts of
           the indictment.
               In the Plea Agreement and Statement of Facts submitted to the
           Court, he admitted that he had provided false information to the U.S.
           Embassy in Moscow in support of 47 individuals who had fraudulently
           obtained U.S. visas, and that he had received approximately $88,000 in
           fees for this. On March 19, 2001, this individual was sentenced to 10
           months imprisonment. (See OIG Semiannual Report, April 1 to September
           30, 2000, p. 30.) (00-029)



           Since August 1999, OIG has been conducting a joint investigation with
           INS, the Social Security Administration OIG, and the Internal Revenue
           Service, based on information that a network of individuals was engaged
           in a scheme involving visa fraud, alien smuggling, and money laundering.
           This group, operating in several parts of the United States and in the
           Czech Republic, was involved in a conspiracy to profit from the employ-
           ment of unauthorized alien workers in the United States.
                The investigation determined that the group assisted foreign nation-
           als in obtaining nonimmigrant visas from U.S. consulates by misrepre-
           senting the true purpose of the travel, and by providing fraudulent
           documentation in support of visa applications. Once in the United
           States, many of these foreign nationals were provided with counterfeit
           H1-B visas, which authorize employment. These fraudulent visas were
           then used to obtain social security cards and other identity documents.
               Four Czech nationals, who had been living in the United States,
           entered guilty pleas to felony charges in February 2000 in U.S. District
           Court in Norfolk, Virginia. In May 2000, these four individuals were sen-
           tenced. One of these Czech nationals, who had pleaded guilty to con-
           spiracy to launder monetary instruments, was sentenced to 84 months
           incarceration and will be deported on completion of the sentence. The
           Court also ordered the forfeiture of $136,763 in seized assets. The other
           three individuals received lesser sentences, and will also be deported on
           completion of the sentences.



52   OIG Semiannual Report to the Congress, October 1, 2000, to March 31, 2001
                             On March 22, 2001, a Slovak national was charged in Norfolk, Vir-
                         ginia, in a 15-count indictment with visa fraud, money laundering, wire
                         fraud, and inducement of an alien to enter the United States illegally.
                         This individual is believed to be residing in the Czech Republic. Extradi-
                         tion to the United States will be requested. This investigation is continu-
                         ing, with criminal charges anticipated against additional individuals. (See
                         OIG Semiannual Report, October 1, 1999, to March 31, 2000, p. 30 and OIG
                         Semiannual Report April 1, 2000, to September 30, 2000, p. 35.) (99-072)



                         OIG is conducting a joint investigation with INS, based on information
                         that Polish nationals in New Jersey were running a large-scale operation
                         providing fraudulent visas, which were then used to obtain social security
                         cards, drivers licenses, and other identifying documents. In July 2000, a
                         participant in this scheme was arrested on felony charges of conspiracy
                         and visa fraud and subsequently agreed to cooperate with investigators.
                         In August 2000, a second participant was arrested on the same charges
                         and also agreed to cooperate. On March 13, 2001, one of these individu-
                         als pleaded guilty to visa fraud in U.S. District Court and is continuing to
                         cooperate in the ongoing investigation. The other individual is also con-
                         tinuing to cooperate. (See OIG Semiannual Report, April 1 to September 30,
                         2000, p. 31.) (99-065)

                         Passport Fraud
                         OIG opened an investigation in April 2000, based on information pro-
                         vided by the Office of the U.S. Attorney for the Southern District of
                         New York. The information indicated that an individual under indict-
                         ment for defrauding investors might have committed passport fraud in
                         an attempt to flee the United States. OIG obtained and reviewed rel-
                         evant passport application data.
                              On April 12, 2000, this individual was arrested at an airport by the
                         U.S. Marshals Service while attempting to leave the United States, in vio-
                         lation of the bond conditions. The individual possessed an altered U.S.
                         passport. On April 25, the subject was indicted on a felony charge of
                         forgery or false use of a passport, as well as a felony charge of fraud re-
                         lated to the Investment Advisers Act, and, on August 2, pleaded guilty to
                         the charge related to defrauding investors. On February 7, 2001, the indi-
                         vidual was sentenced to 4 years and 9 months in prison, and was ordered
                         to make restitution of $9,870,612. (See OIG Semiannual Report, April 1 to
                         September 30, 2000, p. 31.) (00-058)




OIG Semiannual Report to the Congress, October 1, 2000, to March 31, 2001                        53
           Theft
           In June 1999, OIG opened an investigation based on information pro-
           vided by the Diplomatic Security Service indicating that a passport exam-
           iner at the New York Passport Agency had been engaged in the theft of
           passport fees. The investigation determined that the employee had used
           several different methods to steal application fees over a period of ap-
           proximately 2 years. The passport examiner was terminated from employ-
           ment in August 1999.
                In July 2000, the former employee was charged in a Federal criminal
           complaint with a felony violation of theft of public money. On March 26,
           2001, the individual pleaded guilty to this charge in U.S. District Court for
           the Southern District of New York. Sentencing was pending at the end of
           this reporting period. (See OIG Semiannual Report, April 1 to September 30,
           2000, p. 32.) (99-059)




                                           HOTLINE

                   The OIG Hotline, operated by the Office of Investigations, is
                    a prompt, effective channel for employees to report incidents
                    of fraud, waste, abuse, and mismanagement to the Inspector
                    General. Below is a summary of Hotline activity for the agen-
                   cies for which OIG has oversight.
                           Total allegations received . . . . . . . . . . . 176
                           Held for action within OIG . . . . . . . . . . 26
                       Referred to other offices for action . . . . . . 124
                       Not substantiated  no action necessary . . . 26




54   OIG Semiannual Report to the Congress, October 1, 2000, to March 31, 2001
Appendix 1: Investigative Activities1

Workload                                                                      Total Judicial Actions                                  62
Cases pending 9/30/00                               85
                                                                              Criminal
New cases opened                                    47
                                                                              Prosecutive referrals                              16
Cases closed                                        23
Cases pending 3/31/01                              109                        Prosecutive declinations                             9
                                                                              Prosecutive dismissals                               1
Preliminary inquiries pending 9/30/00               20                        Acquittals                                           0
Prelim opened                                       63                        Indictments
                                                                                      2                                          14
Prelim closed                                       61                        Convictions                                         11
Prelim converted to cases                            6                        Sentencings                                          9
Preliminary inquiries pending 3/31/01               22                          Time sentenced                           173 months
                                                                                Time suspended                                     0
Total Administrative Actions                        10                          Time probation                               8 years
Admonishments                                         0                       Court-ordered fines                            $1,200
Counseling                                            0                       Court-ordered restitutions                    $44,776
Curtailment                                           0
Demotions                                             0                       Civil
Reimbursements                                        0                       Referrals                                              0
Reprimands                                            0
                                                                              Declinations                                           1
Resignations                                          2
Suspensions                                           1                       Complaints                                             0
Terminations                                          2                       Judgments                                              1
Administrative referrals                              5                       Court-ordered fines                               $5,000
PFCRA3 referrals                                      0                       Recoveries                                             0
Savings                                               0                       Total judgments and recoveries                    $5,000




                                   Administrative recoveries4                         $         0
                                   Judicial recoveries5                               $    50,976
                                   Total Investigative Recoveries                     $    50,976




                           1
                             This appendix reflects investigative statistics for the Department of State
                         only. Please see page 51 for investigative statistics related to BBG.
                           2
                             Indictments included formal criminal charges brought against a subject.
                         The manner in which charges are brought varies from country to country.
                           3
                             Program Fraud and Civil Remedies Act.
                           4
                             Includes recoveries from administrative actions, such as reimbursements
                         and savings.
                           5
                             Includes recoveries from judicial actions, including court-ordered fines
                         and restitutions and civil judgments and recoveries.

    The statistics and narrative case descriptions of investigative activities appearing in this Semiannual Report to the Congress
    are the result of reports received from prosecutive and administrative authorities. The final actions may be changed at a later
    date by individual use of administrative and judicial appeals processes.



OIG Semiannual Report to the Congress, October 1, 2000, to March 31, 2001                                                             55
Appendix 2: Reports Issued

Financial Management and Administrative
01-PP-002        Inquiry into the Procurement of Contractor Support for the International
                 Affairs Global Resource Database                                               11/00
01-PP-003        Review of Humanitarian Demining Management and Procurement Activities          12/00
01-FM-004        Vulnerability and Penetration Testing Analysis of the Unclassified Automated
                 Information Systems at the Bangkok Financial Service Center                     1/01
01-FM-006        Application of Agreed-Upon Procedures Report                                   12/00
01-FMA-M-009     Review of the War for Talent Personnel Study                                    3/01
01-FMA-R-013     Audit of U.S. Department of State 2000 Principal Financial Statements           3/01
01-FMA-L-015     Water and Sewer Payments to the District of Columbia                            2/01
01-FMA-R-016     Review of Selected Awards to Mississippi Consortium for International
                 Development for Activities in the New Independent States                        3/01
01-FMA-L-023     Federal Agencies Centralized Trial-Balance System Agreed-Upon
                 Procedures Report                                                               3/01


Foreign Policy
01-FP-R-003      Bureau of European Affairs                                                      3/01
01-FP-R-011      Embassy Sarajevo, Bosnia-Herzegovina                                            3/01
01-FP-R-012      Embassy Bratislava, Slovakia                                                    3/01
01-FP-R-021      Embassy Sofia, Bulgaria                                                         3/01
01-FP-R-026      Embassy Nairobi, Kenya                                                          3/01
01-FP-R-025      Embassy Dar es Salaam, Tanzania                                                 3/01
ISP/I-01-01      Embassy Conakry, Guinea                                                        10/00
ISP/I-01-03      Embassy Dakar, Senegal                                                         11/00
ISP/I-01-04      Embassy Bamako, Mali                                                           11/00
ISP/I-01-06      Embassy Bogota, Colombia                                                       12/00
01-FP-R-020      U.S. Interests Section Havana, Cuba                                             3/01
ISP/I-01-02      Embassy Panama City, Panama                                                    11/00
01-FP-R-022      Embassy Caracas, Venezuela                                                      3/01
ISP/I-01-05      Status of State-USIA Consolidation at Overseas Posts                            3/01
01-FP-M-027      U.S. Munitions List and the Commodity Jurisdiction Process                      3/01




56                  OIG Semiannual Report to the Congress, October 1, 2000, to March 31, 2001
Security
01-FMA-R-006        Review of the Surveillance Detection Program                          3/01
SIO/A-01-02         Audit of Emergency Action Management                                 10/00
SIO/I-01-01         Embassy Damascus, Syria                                              10/00
SIO/I-01-03         Embassy Beirut, Lebanon                                              12/00
SIO/I-01-04         Embassy Skopje, Macedonia                                            11/00
SIO/I-01-05         Embassy Helsinki, Finland                                            12/00
SIO/I-01-07         Embassy Nicosia, Cyprus                                              12/00
SIO/I-01-08         Embassy Antananarivo, Madagascar                                     12/00
SIO/I-01-09         Embassy Port Louis, Mauritius                                        12/00
SIO/I-01-12         Embassy Rangoon, Burma                                               12/00
01-SEC-R-002        Embassy Moscow, Russia                                                3/01
01-SEC-R-004        U.S. Office Pristina                                                  3/01


Followup Review
01-SEC-R-010        Embassy Ljubljana, Slovenia                                           3/01



Contract Audits


Contractor                                           Audit Number           Type
Washington Group International                       PA-BB-CG-0029          Labor Hour
Ayres Corporation                                     PA-BB-CG-0035         Labor Hour
Alphatech Corporation                                PA-BB-CG-0037          At Risk Claim
Michael Graves & Associates                          PA-BB-CG-0040          Labor Hour
Zimmer, Gunsul, Frasca, Partnership                  PA-BB-CG-0041          Labor Hour




OIG Semiannual Report to the Congress, October 1, 2000, to March 31, 2001                   57
Appendix 3:
Savings & More Effective Use of Resources

                                             Table I
                             INSPECTOR GENERAL ISSUED AUDIT REPORTS1
                                     WITH QUESTIONED COSTS2


                                                                    Number               (Dollars in Thousands)
                                                                   of Reports    Questioned Costs Unsupported Costs


     A.  For which no management decision has been
         made by the commencement of the reporting
         period                                                            10              6,775                 388
     A1. Adjustment                                                         0                  0                   0
     A2. Adjusted Balance                                                  10              6,775                 388

     B.      Which were issued during the reporting period                 2               1,152                  20

     Subtotals (A2 + B)                                                    12              7,927                 408

     C.      For which a management decision was made
             during the reporting period                                   3                 860                  23
              based on formal administrative
                or judicial appeal
             (i) dollar value of disallowed costs                          0                    0                   0
             (ii) dollar value of costs not disallowed                     0                    0                   0


     D.      For which no management decision has been
             made by the end of the reporting period                       9               7,067                 385

             Reports for which no management decision
             was made within 6 months of issuance                          7               5,915                 345




     


      1
          Includes audit reports issued by the Office of Audits and by the Office of Security and Intelligence Oversight.   .
      2
        Questioned costs are costs that are questioned by the OIG because of an alleged violation of a provision of a
     law, regulation, contract, grant, cooperative agreement, or other agreement or document governing the expenditure
     of funds; a finding that, at the time of the audit, such costs are not supported by adequate documentation; or a
     finding that the expenditure of funds for the intended purpose is unnecessary or unreasonable.




58                           OIG Semiannual Report to the Congress, October 1, 2000, to March 31, 2001
                                   Table II
                   INSPECTOR GENERAL ISSUED AUDIT REPORTS
            WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE1


                                                                            Number               Dollar Value
                                                                           of Reports          (in thousands)


   A. For which no management decision has been made
      by the commencement of the reporting period                              6                 1,447

   B. Which were issued during the reporting period                            1                    522

        Subtotals (A + B)                                                      7                 1,969

   C. For which a management decision was made
      during the reporting period                                              2                    428

        (i) dollar value of recommendations that were
            agreed to by management                                            2                    428
             based on proposed management action
             based on proposed legislative action

        (ii) dollar value of recommendations that were
             not agreed to by management                                       0                       0

   D. For which no management decision has been
      made by the end of the reporting period                                  5                 1,541

        Reports for which no management decision
        was made within 6 months of issuance                                   4                 1,019




   


    1
     A recommendation that funds be put to better use is a recommendation by the OIG that funds could be used
   more efficiently if Department management took actions to implement and complete the recommendations, includ-
   ing: reductions in outlays; deobligation of funds from programs or operations; withdrawal of interest subsidy costs
   on loans or loan guarantees, insurance, or bonds; costs not incurred by implementing recommended improvements
   related to the operations of the Department, a contractor, or a grantee; avoidance of unnecessary expenditures
   noted in preaward reviews of contract or grant agreements; or any other savings which are specifically identified.




OIG Semiannual Report to the Congress, October 1, 2000, to March 31, 2001                                                59
Appendix 4:
Resolution of Reports & Recommendations

                            PREVIOUSLY REPORTED SIGNIFICANT AUDIT
                           RECOMMENDATIONS1 PENDING FINAL A CTION2

     Report  Rec. Report Title                                                                         First
     Number Number Recommendation Summary                                                            Reported



     3-PP-014     Maintenance and Repair of Buildings Overseas                                     3/31/94
             1.   Develop a system to identify and monitor the worldwide backlog of
                  maintenance and repair deficiencies, including determining an accept-
                  able level for the backlog and periodically updating the backlog for
                  corrective action taken, additional deficiencies identified, and improved
                  cost estimates.


     93-A-34/
     ARR-95-08 Grants Management Followup                                                           3/31/95
             5.   Require monthly reporting requirements on the projects status.
             6.   Ensure that data in the grants system is reconciled with data in other
                  grant-related systems.


     APR-96-07 Exchange Visitor Information System                                                 3/31/96
             3.   Determine the feasibility of electronically transmitting J Visa data
                  from sponsor organizations to the EVIS database at USIA.







  1
    Includes audit recommendations reported as significant in semiannual reports prior to September 30, 2000, on
which Department management has agreed to take corrective action but for which those actions are not yet complete.
 2
  Final action is recorded when a proposed course of action in response to a recommendation has been accepted by
OIG and completed by management to OIGs satisfaction.




60                     OIG Semiannual Report to the Congress, October 1, 2000, to March 31, 2001
                                SUMMARY OF AUDIT REPORTS
             WITHOUT MANAGEMENT DECISION FOR MORE THAN SIX MONTHS



Management of Secure Communications (SIO/A-97-15), March 1997
Summary: OIG made 22 recommendations to the Director General of the Foreign Service and the
         Director of Personnel (now Human Resources) to require personnel, like IM specialists staff,
         who hold positions with access to bulk quantities of sensitive information to undergo a
         special counterintelligence screen process prior to each assignment. Three of the recom-
         mendations remain unresolved, which were assigned to the Director General of the Foreign
         Service.
Reason Unresolved: The Director General of the Foreign Service has not responded, formally or
          informally to the report and subsequent follow-up inquiries.
To be resolved by:    June 2001


Classified (Red) Mainframe Systems Security (SIO/A-97-02), October 1996
Summary: OIG made 14 recommendations to the Under Secretary for Management and the Assistant
         Secretary for Administration to establish a security program and plan for the system, to
         address risks found during the audit, and to ensure that responsible officials are identified
         and kept informed about the systems security. Four of the 14 recommendations remain
         unresolved, which were assigned to the Under Secretary for Management.
Reason Unresolved: The Under Secretary for Management has not responded formally to the report.
          However, OIG is working with that office to reach resolution on all of the recommendations.
To be resolved by:    June 2001


Management of Sensitive Compartmented Information Access (SIO/A-98-49) September 1998
Summary: OIG made 4 recommendations to the Assistant Secretary for Intelligence and Research and
         the Director General of Personnel to document policy and procedures on how INR will
         process SCI access requests, arbitrate waivers and disputed decisions to include DS and
         the Bureau of Personnel (now Human Resources), and develop a reliable process for
         determining when SCI access authorizations terminate. Three of the 4 recommendations
         remain unresolved, which were assigned to the Assistant Secretary for Intelligence and
         Research.
Reason Unresolved: INR had advised OIG of its plan to respond to these recommendations. However,
          due to the Secretary of States transfer of authority for protection of SCI material from INR to
          DS, INR responded that it no longer has primary responsibility for these recommendations.
          In recent correspondence to DS and INR, OIG requested that DS work with INR to reach
          resolution for these recommendations.
To be resolved by:    June 2001




OIG Semiannual Report to the Congress, October 1, 2000, to March 31, 2001                              61
                                  SUMMARY OF AUDIT REPORTS
              WITHOUT MANAGEMENT DECISION FOR MORE THAN SIX MONTHS



 Protective Services (SIO/A-99-29), June 1999
 Summary: OIG made 25 recommendations to improve the protection provided to visiting dignitaries and
          foreign missions in the United States; 24 recommendations were made to DS, and 3 of
          these, which address centralizing all functions for the protection of foreign missions, transfer-
          ring the authority for the ambassadors protective detail, and implementing a policy restrict-
          ing the number of days that agents work, remain unresolved.
 Reason unresolved: DS has not responded to these recommendations since October 1999.
 To be resolved by: June 2001


 Overseas Telephone Systems Security Management (SIO/A-00-01), November 1999
 Summary: OIG made 19 recommendations to find solutions to overseas telephone security risks; 12 of
          these remain unresolved. Two of the unresolved recommendations were assigned to the
          Chief Information Officer, and 10 of the unresolved recommendations were assigned to DS.
 Reason unresolved: OIG is working with DS and with the Chief Information Officer to reach resolution
           on all of the recommendations.
 To be resolved by: June 2001

 North/South Center (ARR-94-03), March 1994
 Summary: OIG recommended that USIA seek reimbursement of $1,507,261 in questioned costs,
          approximately $1 million of which resulted from an inequitable allocation of indirect costs to
          the Center. The Department of Health and Human Services, which has audit cognizance,
          established new indirect cost rates.
 Reason unresolved: The Department deferred action on about $480,000 in remaining questioned costs
           pending further consultation with the Bureau of Educational and Cultural Affairs and awaiting
           additional information from the bureau.
 To be resolved by: June 2001


 International Institute of Wisconsin (CG-96-01), September 1996
 Summary: OIG made recommendations on questioned grant costs totaling $46,636 and internal controls
          and noncompliance issues.
 Reason Unresolved: The Department is seeking clarification and documentation from the grantee.
 To be resolved by: June 2001


 Review of Indirect Costs Rates Proposed by the Institute of International Education (CG-99-015),
            May 1999
 Summary: OIG made recommendations on questioned costs totaling $1,054.098 that resulted from an
          inequitable allocation in indirect costs.
 Reason Unresolved: The Department deferred a decision on the questioned costs pending completion
           of the appeal process.
 To be resolved by: Unknown, Under appeal.




62                   OIG Semiannual Report to the Congress, October 1, 2000, to March 31, 2001
                                SUMMARY OF AUDIT REPORTS
              WITHOUT MANAGEMENT DECISION FOR MORE THAN SIX MONTHS



Sale and Leaseback Arrangement Proposed by the Institute of International Education                (CG-
           99-016), May 1999
Summary: OIG made recommendations on the sale and leaseback arrangement proposed by the grantee
         that did not constitute a sale and leaseback within the meaning of the OMB cost principles and
         projected Funds Put to Better Use of $4,300,000 over the life of the lease.
Reason Unresolved: The Department deferred a decision pending completion of the appeal process.
To be resolved by: Unknown; under appeal.


Washington Workshops Foundation (CG-99-025), September 1999
Summary: OIG made recommendations on questioned costs totaling $913,000 and internal controls and
         compliance issues.
Reasons Unresolved: The Department is seeking clarification from the grantee.
To be resolved by: June 2001


ACLS Supporting the Vietnam Fulbright Economics (CG-99-026), October 1999
Summary: OIG made recommendations on questioned costs totaling about $1.1 million and internal
         controls and compliance issues.
Reason Unresolved: The Department is seeking clarification and additional documentation from the
          grantee.
To be resolved by: June 2001


Town Affiliation Association of the U.S. (00-CG-019), July 2000
Summary: OIG made recommendations on questioned costs totaling about $908.812 and internal controls
         and compliance issues.
Reason Unresolved: The Department is reviewing additional documentation provided by the grantee.
To be resolved by: June 2001


The American Councils for International Education (00-CG-032), September 2000
Summary: OIG made recommendations on questioned costs totaling $1,186,847 and compliance issues.
Reason Unresolved: The Department is seeking clarification and additional documentation from the
          grantee.
To be resolved: June 2001




OIG Semiannual Report to the Congress, October 1, 2000, to March 31, 2001                            63
           Broadcasting Board of Governors


            OIG Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   69
            Appendix 1: Investigative Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .               71
            Appendix 2: Reports Issued . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             71
            Appendix 3: Savings and More Effective Use of Resources
              Table 1: Questioned Costs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                72
              Table 2: Funds Put to Better Use . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                   72
            Appendix 4: Resolution of Reports & Recommendations
              Audit Reports Pending Management Decision . . . . . . . . . . . . . . . . . . . .                                73




OIG Semiannual Report to the Congress, October 1, 2000, to March 31, 2001                                                           67
OIG Activities

                         Review of the Broadcasting Board of Governors
                         Transition to Independence (01-FP-M-018)



                         OIG reviewed the Broadcasting Board of Governors transition to inde-
                         pendence in accordance with the Foreign Affairs Reform and Restruc-
                         turing Act of 1998 (Public Law 105-277). On October 1, 1999, the U.S.
                         Information Agency, the parent agency for BBG, merged with the De-
                         partment, and BBG became an independent Federal entity. The primary
                         objectives of the review were to determine the status of the indepen-
                         dence process and to examine independence mandates and decisions
                         that affect BBGs ability to operate.
                              OIG found that BBG has made considerable progress in establishing
                         its independence while continuing to transmit international broadcasts
                         throughout the world. Although there were no significant broadcast pro-
                         gramming changes, the agency made a number of organizational changes
                         to incorporate some functions previously performed by the USIA, e.g.,
                         legal counsel, contracting, security, and civil rights.
                              Several operational issues remained unresolved with the Department
                         in connection with independence. In particular, we found that BBG and
                         the Department had not been able to agree on an overall Memorandum
                         of Understanding (MOU) on operating arrangements involving the two
                         parties. Two key areas that continued to impair resolution of the MOU
                         include (1) the BBG level of support for the Departments interactive
                         and other diplomacy programming, and (2) U.S. chief of mission author-
                         ity over Voice of America correspondent travel overseas. Overall, the
                         lack of resolution on these issues and signing of the MOU were delaying
                         important communications to overseas posts concerning how the new
                         BBG and the Department would continue to work together.
                             The report includes recommendations to the two agencies to:
                              finalize all formal memoranda pertaining to operating agreements;
                              follow through with establishing a financial service center at BBG
                               staffed with Department personnel;
                              develop cost data and an appropriate reimbursement basis for
                               BBG programming services provided to the Department;
                              develop a Department programming needs assessment to support
                               requests for BBG transmission services;


OIG Semiannual Report to the Congress, October 1, 2000, to March 31, 2001                    69
                          defer any expansion of the transmission system until the Depart-
                           ment needs assessment is completed; and
                          seek Department reimbursement for transmission services that
                           cannot be supported within existing BBG resources.



BBG-Related Work   U.S. Interests Section Havana, Cuba (01-FP-R-020)
Developed during
Inspections of     The U.S. Interests Section does not systematically track Radio Martí and
Various Missions   has not been able to produce reliable data on the effectiveness of Radio
                   Martí. The Mission has conducted a few informal surveys, but results
                   have been inconclusive. Most information on listenership was anecdotal.
                   Given the sizeable cost of Radio Martí broadcasting and the important
                   role the station can play as a voice of freedom, the U.S. Interests Section
                   should systematically monitor its effectiveness and periodically forward
                   listener views and comments on programming to Radio Martí managers.

                   Memorandum Report (ISP/I-01-07) and
                   Memorandum Report (ISP/I-01-08)
                   Inspections of BBG operations in Bogota, Colombia, and Panama City,
                   Panama, documented the need for appropriate cost-sharing arrangements
                   for support of operations in those countries. BBG hoped to address this
                   problem on the basis of a not yet finalized Memorandum of Under-
                   standing with the Department that would address the support reimburse-
                   ment issue on a global basis.

                   Embassy Nairobi, Kenya (O1-FP-R-026) and
                   Embassy Dar es Salaam, Tanzania (01-FP-R-025)
                   OIG inspected the Nairobi bureau of the Voice of America and exam-
                   ined the Voice of America broadcast affiliate program in both Kenya and
                   Tanzania. The Nairobi bureau earned praise for its operations. The in-
                   spections coincided with the visit of the BBG International Broadcasting
                   Bureaus Director of the Office of Affiliate Relations, who reviewed with
                   OIG the BBG goal of establishing a regional marketing office to support
                   BBGs strategy for the growth of its affiliate network in east and south-
                   ern Africa. Embassy Nairobi had twice previously denied National Secu-
                   rity Decision Directive-38 approval for a marketing office. Ultimately,
                   BBG has decided to look to Embassy Pretoria for permission to set up
                   an office in Johannesburg that would serve the region.




70           OIG Semiannual Report to the Congress, October 1, 2000, to March 31, 2001
Appendix 1: Investigative Activities


                                Workload

                                Cases pending 9/30/00                                    0
                                New cases opened                                         0
                                Cases closed                                             0
                                Cases pending 3/31/01                                    0


                                Total Judicial Actions                                  0



                                Total Administrative Actions                            0




                    The statistics and narrative case descriptions of investigative activities appearing
                    in this Semiannual Report to the Congress are the result of reports received from
                    prosecutive and administrative authorities. The final actions may be changed at a
                    later date by individual use of administrative and judicial appeals processes.




Appendix 2: Reports Issued

01-FP-M-018     Review of the Broadcasting Board of Governors Transition to Independence                    3/01
01-FP-R-020     U.S. Interests Section Havana, Cuba                                                         3/01
ISP/I-01-07     Memorandum Report U.S. Embassy Bogota                                                      11/00
ISP/I-01-08     Memorandum Report U.S. Embassy Panama                                                      11/00
01-FP-R-026     Embassy Nairobi, Kenya                                                                      3/01
01-FP-R-025     Embassy Dar es Salaam, Tanzania                                                            3/01




OIG Semiannual Report to the Congress, October 1, 2000, to March 31, 2001                                   71
Appendix 3:
Savings & More Effective Use of Resources
                                            Table I
                             INSPECTOR GENERAL ISSUED A UDIT REPORTS
                                     WITH QUESTIONED COSTS
                                                        Number            (Dollars in Thousands)
                                                       of Reports Questioned Costs Unsupported Costs

 A.   For which no management decision has been made
      by the commencement of the reporting period           0                 0               0

 B.   Which were issued during the reporting period         0                 0               0

      Subtotals (A + B)                                     0                 0               0

 C.   For which a management decision was made
      during the reporting period                           0                 0               0

       based on formal administrative or
         judicial appeal
      (i) dollar value of disallowed costs                  0                 0               0
      (ii) dollar value of costs not disallowed             0                 0               0


 D.   For which no management decision has been
      made by the end of the reporting period               0                 0               0

      Reports for which no management decision
      was made within 6 months of issuance                  0                 0               0



                                        Table II
                         INSPECTOR GENERAL ISSUED A UDIT REPORTS
                  WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE

                                                                  Number            Dollar Value
                                                                 of Reports       (in thousands)

 A.   For which no management decision has been made
      by the commencement of the reporting period                    0                   0

 B.   Which were issued during the reporting period                  0                   0

      Subtotals (A + B)                                              0                   0

 C.   For which a management decision was made
      during the reporting period                                    0                   0

      (i) dollar value of recommendations that were
          agreed to by management                                    0                   0
           based on proposed management action
           based on proposed legislative action

      (ii) dollar value of recommendations that were
           not agreed to by management                               0                   0

 D.   For which no management decision has been
      made by the end of the reporting period                        0                   0

      Reports for which no management decision
      was made within 6 months of issuance                           0                   0

72                     OIG Semiannual Report to the Congress, October 1, 2000, to March 31, 2001
                             SUMMARY OF AUDIT REPORTS
          WITHOUT MANAGEMENT DECISION FOR MORE THAN SIX MONTHS




  Radio Marti Policies and Procedures (99-IB-010) June 1999


  Summary: OIG recommended that the Broadcasting Board of Governors establish policies and
            procedures so that future evaluation panels can assess whether the foreign policy
            requirements of the Voice of America Charter and the 1994 International Broad-
            casting Act are being met.


  Reason Unresolved: BBG disagrees with the recommendation and believes there are sufficient
            mechanisms in place to ensure that broadcasts satisfy statutory requirements. On
            April 13, 2000, BBG cited as further support for this position the recently completed
            legislatively mandated review of BBG language services. According to BBG, this
            review process, carried out in consultation with the Department of State, is a valuable
            method of assessing whether BBG broadcasting remains consistent with U.S. foreign
            policy objectives. Although the language reviews are important, they do not address
            the content of programs aired by BBG, which is the intent of the recommendation.
            Instead, such reviews assess the focus of BBG programming and, as necessary, the
            need to reallocate resources to areas of higher priority. Furthermore, in a March 2000
            response to BBG, OIG pointed out that it would reserve judgment on resolution of
            this recommendation until it received BBGs March 31, report to the Congress on
            OIGs Radio Marti recommendations, including the one now without a management
            decision. On August 29, 2000, OIG again requested that BBG provide a copy of the
            issued report so that OIG may consider it in coming to a mutually acceptable resolu-
            tion of the recommendation.


  To be resolved by: August 2001




OIG Semiannual Report to the Congress, October 1, 2000, to March 31, 2001                             73
List of Abbreviations

        BBG        Broadcasting Board of Governors
          DS       Bureau of Diplomatic Security
          EU       European Union
         EUR       Bureau of European Affairs
       FACTS       Federal Agencies Centralized Trial-Balance System
         FSN       Foreign Service national
         INS       Immigration and Naturalization Service
       NATO        North Atlantic Treaty Organization
         NIS       New Independent States
         OIG       Office of Inspector General
      PM/HDP       Bureau of Political-Military Affairs, Office of
                   Humanitarian Demining Programs
       USAID       U.S. Agency for International Development
        USIA       U.S. Information Agency




74      OIG Semiannual Report to the Congress, October 1, 2000, to March 31, 2001
                           INDEX OF REPORTING REQUIREMENTS
                   INSPECTOR GENERAL ACT OF 1978, AS AMENDED


REQUIREMENT         SUBJECT                                                     PAGE NUMBERS

Section 4(a)(2)     Review of legislation and regulations                                 9-11
Section 5(a)(1)     Significant problems, abuses, and deficiencies                 17-46, 69-70
Section 5(a)(2)     Significant recommendations for corrective action              17-46, 69-70
Section 5(a)(3)     Prior significant recommendations unimplemented                         60
Section 5(a)(4)     Matters referred to prosecutive authorities                          47-54
Section 5(a)(5)     Information or assistance refused                                     None
Section 5(a)(6)     List of reports issued                                            56-57, 71
Section 5(a)(7)     Summaries of significant reports                               17-46, 69-70
Section 5(a)(8)     Audit reports–questioned costs                                       58, 72
Section 5(a)(9)     Audit reports–funds to be put to better use                          59, 72
Section 5(a)(10)    Prior audit reports unresolved                                    61-63, 73
Section 5(a)(11)    Significant revised management decisions                              None
Section 5(a)(12)    Significant management decisions with which OIG disagreed             None
